No. 21-____
IN THE

Supreme Court of the United States
_________

GARY HEIDEL, ET AL.,
Petitioners,

v.

SHERIFF ANTHONY MAZZOLA, ET AL.,
_________

Respondents.

On Petition for a Writ of Certiorari to the
United States Court of Appeals
for the Tenth Circuit
_________
PETITION FOR A WRIT OF CERTIORARI
_________

J. KEITH KILLIAN

Counsel of Record

DAMON J. DAVIS
BENJAMIN P. MEADE
KILLIAN DAVIS RICHTER &
KRANIAK, PC
202 North Seventh Street
Grand Junction, CO
keith@killianlaw.com
damon@killianlaw.com
ben@killianlaw.com

Counsel for Petitioners

Questions Presented
1. Whether pursuant to Kingsley v. Hendrickson,
135 S.Ct. 2466 (2015), jail officials violate a pretrial
detainee’s Fourteenth Amendment right to medical
treatment by being reckless to, without actually
knowing of, the detainee’s substantial risk of suicide.
2. Whether the Tenth Circuit erred by
concluding, contrary to other jurisdictions, that
suicide is not a highly predictable consequence of a
detention center’s failure to enforce a suicide
prevention program.

i

Rule 14(b)(i) Statement
The Plaintiffs-Petitioners are as follows:
Gary
Heidel,
Individually;
Michelle
Aschbacher, individually; Camille Rowell,
individually; Kersten Heidel, individually; and
Michael Rowell, individually and as the
personal representative of the Estate of
Catherine Rowell.
The Defendants-Respondents are as follows:
Sherriff Anthony Mazzola, in his individual
and official capacity; Sergeant Jeremy Muxlow,
in his individual capacity; Deputy Kim Cook, in
his individual capacity; Deputy Clinton Kilduff,
in his individual capacity; and Deputy Johnny
Murray, in his individual capacity.

Rule 14.1(b)(iii) Statement
This case directly relates to these proceedings:
Heidel, et. al., v. Mazzola, et. al., (D. Colo. No. 1:18-cv00378-REB-GPG, January 28, 2020).
Heidel et. al. v. Mazzola, et. al. (10th Cir. No. 20-1067,
March 23, 2021).
Heidel, et. al., v. Mazzola, et. al., (Colorado, Adams
County Court No. 2020CV30602, no judgment, filed to
pursue state-law claims after the grant of summary
judgment on the federal claims).

ii

Heidel, et. al., v. Mazzola, et. al., (Colorado, Rio Blanco
County Court No. 2020CV1, no judgment yet,
transferred to this court from Adams County court).
Heidel, et. al., v. Mazzola, et. al., (Colorado Court of
Appeals No. 2021CA370, no judgment yet,
interlocutory appeal from the Rio Blanco County
case).
No other proceedings in state or federal trial or
appellate courts, or in this Court, directly relate to
this case.

iii

Table of Contents
Questions Presented

i

Rule 14.1(b)(i) Statement

ii

Rule 14.1(b)(iii) Statement

ii

Table of Appendices

vi

Table of Authorities

vii

Opinions Below

1

Jurisdiction

2

Constitutional and Statutory Provisions
Involved

2

Introduction

3

Statement of the Case

7

A.

Factual Background

7

B.

Procedural Background

Reasons for Granting the Petition
I.

After Kingsley, the Circuits are Split on
Whether Jail Officials Violate a Pretrial
Detainee’s Fourteenth Amendment Rights
by Being Reckless To, Without Actually
Knowing of, the Inmate’s Serious Medical
Need

iv

11
12

13

II.

III.

IV.

The Circuit Split is Especially Important
in Cases Involving a Pretrial Detainee’s
Suicide

17

In the Present Case Involving a Pretrial
Detainee’s Suicide, Jail Officers Were
Reckless in Numerous Ways, Making This
Case an Ideal Vehicle for Addressing the
Circuit Split

22

Concerning the Second Question Presented,
this Court Should Either Correct the Tenth
Circuit’s Error or Give the Tenth Circuit the
Opportunity to Do So
27

Conclusion

30

Appendix A: Opinion, Heidel v. Mazzola, No.
20-1067 (10th Cir. Mar. 23, 2021)

1a

Appendix B: Order Concerning Motion for
Summary Judgment, Heidel v. Mazzola, No.
18-CV-378-REB-GPG (D. Colo. Jan. 27, 2020)

10a

v

Table of Appendices
Page
APPENDIX A — OPINION AND JUDGMENT OF
THE UNITED STATES COURT OF APPEALS
FOR
THE
TENTH
CIRCUIT,
FILED
MARCH 23, 2021 ................................................1a
APPENDIX B — OPINION OF THE UNITED
STATES DISTRICT COURT FOR THE
DISTRICT
OF
COLORADO,
FILED
JANUARY 27, 2020 ..........................................10a

vi

Table of Authorities

Page(s)

Other Authorities
A.H. v. St. Louis Cty., Missouri,
891 F.3d 721 (8th Cir. 2018) ..................................22
Alderson v. Concordia Par. Corr. Facility,
848 F.3d 415 (5th Cir. 2017) ............................ 14, 21
Baker-Schneider v. Napoleon,
769 F. App'x 189 (6th Cir. 2019)............................22
Barnes v. United States,
776 F.3d 1134 (10th Cir. 2015) ..............................28
Beck v. Hamblen Cty., Tennessee,
969 F.3d 592 (6th Cir. 2020) ..................................14
Belbachir v. Cty. of McHenry,
726 F.3d 975 (7th Cir. 2013) ............................ 22, 23
Bell v. Wolfish,
441 U.S. 520 (1979) ................................................13
Boncher v. Brown Cty.,
272 F.3d 484 (7th Cir. 2001) ..................................19
Caiozzo v. Koreman,
581 F.3d 63 (2d Cir. 2009) ............................... 13, 17
Carroll v. Lancaster Cty.,
301 F. Supp. 3d 486 (E.D. Pa. 2018) .....................22
Castro v. Cty. of Los Angeles,
833 F.3d 1060 (9th Cir. 2016) .................... 13, 14, 21
Charles v. Orange Cty.,
925 F.3d 73 (2d Cir. 2019) .....................................14
Cox v. Glanz,
800 F.3d 1231 (10th Cir. 2015) ..............................12
Darnell v. Pineiro,
849 F.3d 17 (2d Cir. 2017) ............................. passim
Est. of Bonilla v. Orange Cty., Texas,
982 F.3d 298 (5th Cir. 2020) ..................................22

vii

Est. of Downard v. Martin,
968 F.3d 594 (6th Cir. 2020) ..................................22
Estelle v. Gamble,
429 U.S. 97 (1976) ............................................ 12, 16
Farmer v. Brennan,
511 U.S. 825 (1994) .............................. 12, 16, 17, 20
Gordon v. Cty. of Orange,
888 F.3d 1118 (9th Cir. 2018) .................... 14, 15, 16
Greenway v. S. Health Partners, Inc.,
827 F. App'x 952 (11th Cir. 2020)..........................22
Helling v. McKinney,
509 U.S. 25 (1993) ..................................................12
Hill v. Las Vegas Metro. Police Dep't,
197 F. Supp. 3d 1226 (D. Nev. 2016) .....................22
J.K.J. v. Polk,
960 F.3d 367 (7th Cir. 2020) ..................................27
Kingsley v. Hendrickson,
135 S.Ct. 2466 (2015) ..................................... passim
Lawrence v. Chater,
516 U.S. 163 (1996) ................................................29
Matos ex rel. Matos v. O'Sullivan,
335 F.3d 553 (7th Cir. 2003) ..................................22
Mays v. Sprinkle,
992 F.3d 295 (4th Cir. 2021) ..................................14
McGill v. Duckworth,
944 F.2d 344 (7th Cir. 1991) ............................ 16, 20
Miranda v. Cty. of Lake,
900 F.3d 335 (7th Cir. 2018) ................ 13, 14, 15, 21
Nallani v. Wayne County,
665 F. App'x 498 (6th Cir. 2016)............................22
Nam Dang v. Sheriff, Seminole Cty. Fla.,
871 F.3d 1272 (11th Cir. 2017) ........................ 14, 21
Olsen v. Layton Hills Mall,
312 F.3d 1304 (10th Cir. 2002) ...................... passim

viii

Perry for Brooks v. St. Louis,
399 F. Supp. 3d 863 (E.D. Mo. 2019) ................. 5, 27
Pulera v. Sarzant,
966 F.3d 540 (7th Cir. 2020) ..................................22
Stidimire v. Watson,
2018 WL 4680666 (S.D. Ill. No. 17-CV-1183, Sept.
28, 2018) ............................................... 23, 24, 25, 26
Strain v. Regalado,
977 F.3d 984 (10th Cir. 2020) ........................ passim
Taylor v. Barkes,
135 S. Ct. 2042 (2015) ........................................ 4, 19
Wellons v. Hall,
558 U.S. 220 (2010) ................................................29
Whitney v. City of St. Louis, Missouri,
887 F.3d 857 (8th Cir. 2018) ............................ 14, 21
Wilson v. Seiter,
501 U.S. 294 (1991) ................................................16
Woodward v. Corr. Med. Servs,
368 F.3d 917 (7th Cir. 2004) .............................. 5, 27
Young v. Quinlan,
960 F.2d 351 (3rd Cir. 1992) ............................ 16, 20
Statutes
28 U.S.C. § 1254 ..........................................................1
42 U.S.C. § 1983 ......................................................1, 2
U.S. Const. amend. VIII ..............................................1
U.S. Const. amend. XIV ..............................................1
Other Authorities
E. Ann Carson, Ph.D., Mortality in Local Jails,
2000–2018, U.S. Dep’t of Just., (April 2021) .........18
E. Ann Carson, Ph.D., Mortality in State and Federal
Prisons, 2001–2018, U.S. Dep’t of Just. (Apr.
2021) ......................................................................18

ix

Jane M. Draper, Civil liability of prison or jail
authorities for self–inflicted injury or death of
prisoner, 79 A.L.R.3d 1210 (1977 & 2021
Supp.)............................................................ 4, 19, 22
Patrick M. Harrison & Allen J. Beck, Ph.D., Prison
and Jail Inmates at Midyear 2005, U.S. Dep’t of
Just. (May 2006).....................................................17
Kyla Magun, A Changing Landscape for Pretrial
Detainees? The Potential Impact of Kingsley v.
Hendrickson on Jail-Suicide Litigation, 116
Colum. L. Rev. 2059, 2072 n.96 (2016) ........... 17, 20
Christopher J. Mumola, Suicide and Homicide in
State Prisons and Local Jails, U.S. Dep’t of Just.,
at 8–9 (Aug. 2005) ............................................. 4, 19
David E. Patton, Fredrick E. Vars, Jail Suicide by
Design, 68 UCLA L. Rev. Discourse 78 (2020) ......18
Darrell L. Ross, The Liability Trends of Custodial
Suicide, Mag. Am. Jail Ass’n,
Mar.–Apr. 2010 .................................................. 4, 17
Zhen Zeng, Ph.D. & Todd D. Minton, Jail Inmates in
2019, U.S. Dep’t of Just. .......................................18

x

Opinions Below
The Tenth Circuit’s decision is reproduced at
Petition Appendix (“Pet. App.”) 1a to 9a. The district
court’s order granting summary judgment on the
federal claims is reproduced at Pet. App. 10a to 44a.
Jurisdiction
The Tenth Circuit entered issued its opinion on
March 23, 2021. Pet. App. 1a. This Court has
jurisdiction under 28 U.S.C. § 1254(1), in combination
with this Court’s 7/19/2021 order, available at
https://www.supremecourt.gov/orders/courtorders/07
1921zr_4g15.pdf.
Constitutional and Statutory Provisions
Involved
The Eighth Amendment to the U.S.
Constitution provides: “Excessive bail shall not be
required, nor excessive fines imposed, nor cruel and
unusual punishments inflicted.” U.S. Const. amend.
VIII.
Section 1 of the Fourteenth Amendment to the
U.S. Constitution provides, in relevant part: “[N]or
shall any state deprive any person of life, liberty, or
property, without due process of law . . . .” U.S. Const.
amend. XIV, § 1.
The statutory provision involved is 42 U.S.C. §
1983, which provides in relevant part:
Every person who, under color of any
statute, ordinance, regulation, custom,
or usage, of any State or Territory or the

1

District of Columbia, subjects, or causes
to be subjected, any citizen of the United
States or other person within the
jurisdiction thereof to the deprivation of
any rights, privileges, or immunities
secured by the Constitution and laws,
shall be liable to the party injured in an
action at law. . . .
Introduction
The Rio Blanco County Jail provided its officers
with no training on how to identify suicidal inmates.
Opening Brief in Tenth Circuit (hereinafter, “OB”), 6–
7. The jail’s officers, in turn, made no effort to identify
whether Catherine Rowell was suicidal. Id. at 8–12,
14. The officer who booked her did not ask her if she
was suicidal. Id. at 8–12. Once booked, she spent most
of three days sleeping, refusing food, and refusing
exercise. Id. at 12–13. Still the officers did not inquire
about whether she might be suicidal. Id. at 14. And
they checked on her only infrequently, sometimes at
intervals more than two hours long, despite housing
her in a cellblock that had no video or audio monitors
and that had a thirty-three inch armored cable. Id. at
15–16. She hung herself with the cable and died. Id.
at 24.
Rowell’s estate brought a section 1983 claim
against Sheriff Anthony Mazzola in his official
capacity, but the Tenth Circuit affirmed the grant of
summary judgment on this claim. Pet. App. 1a–9a.
The Tenth Circuit concluded that because the officers
did not actually know that Rowell was at a substantial
risk of suicide, the officers did not violate the
Fourteenth Amendment rights of this pretrial
detainee. Id. at 4a–8a & n.3.

2

However, after Kingsley v. Hendrickson, 135
S.Ct. 2466 (2015), the circuits split on whether such
actual knowledge must be proven in a case like this
one. Specifically, in Kingsley, this Court observed
that an inmate held on mere criminal charges is
different from an inmate held on a criminal
conviction: unlike convicted inmates, pretrial
detainees “cannot be punished at all, much less
maliciously and sadistically.” Id. at 2475 (quotations
omitted). Thus, unlike convicted inmates, pretrial
detainees’ rights are violated by an officer’s objectively
unreasonable use of force, even if the officer did not
subjectively know of the unreasonableness. Id. at
2473. After this holding in Kingsley, three circuits
held that a pretrial detainee’s rights are also violated
by an officer’s objectively unreasonable indifference to
serious medical needs regardless of the officer’s
subjective knowledge of that unreasonableness. See
Strain v. Regalado, 977 F.3d 984, 990 n.4 (10th Cir.
2020) (collecting cases). But four circuits disagree,
concluding that Kingsley’s legal standard only applies
in excessive force cases, not in cases involving
deliberate indifference to serious medical needs. See
id. at 990 n.4, 993 (collecting cases).
Like the present petition for certiorari, another
petition for certiorari also asks this Court to resolve
this circuit split. See Strain v. Regalado, (U.S. Sup.
Ct. No. 20-1562, cert petition filed May 7, 2021). As a
vehicle for addressing the circuit split, the present
case is as good as or better than Strain, for two
reasons.
First, unlike Strain, the present case involves
an inmate’s suicide, and inmate suicide cases are
dramatically impacted by the present circuit split.

3

Suicide is most common among the inmate population
least likely to be convicted, because suicide risk is
greatest in jails (not prisons) and greatest shortly
after confinement begins. Christopher J. Mumola,
Suicide and Homicide in State Prisons and Local
Jails, U.S. Dep’t of Just., at 8–9 (Aug. 2005),
https://www.bjs.gov/content/pub/pdf/shsplj.pdf. There
are over a hundred federal circuit cases addressing
the civil liability of prisons and jails for self-inflicted
injuries or deaths of their prisoners. See generally
Jane M. Draper, Civil liability of prison or jail
authorities for self–inflicted injury or death of
prisoner, 79 A.L.R.3d 1210 (1977 & 2021 Supp.)
(collecting cases). Yet this Court’s primary or only
case on that legal issue reached only a narrow holding.
See Taylor v. Barkes, 135 S. Ct. 2042, 2044 (2015). In
contrast, when this Court resolves the circuit split
presently at issue, the holding will have a dramatic
impact on jail suicide cases. See Darrell L. Ross, The
Liability Trends of Custodial Suicide, Mag. Am. Jail
Ass’n, Mar.–Apr. 2010, at 39 fig. 1 (analyzing how this
Court’s previous resolution of a similar circuit split
dramatically impacted the success rate of civil cases
based on jail suicide).
Second, this particular jail suicide case is an
ideal vehicle for resolving the circuit split. The split
is over what state of mind an officer must possess to
violate a pretrial detainee’s right to medical
treatment. In some circuits, the state of mind
requirement is satisfied only if the officer “knows of
and disregards an excessive risk to inmate health or
safety; the official must both be aware of facts from
which the inference could be drawn that a substantial
risk of serious harm exists, and she must also draw
the inference.” Strain, 977 F.3d at 990 (quotations
omitted).
In other circuits, the state of mind

4

requirement may also be satisfied if the officer
“recklessly failed to act with reasonable care to
mitigate the risk that the [medical] condition posed to
the pretrial detainee, even though the defendantoffice knew, or should have known, that the condition
posed an excessive risk to health or safety.” Darnell
v. Pineiro, 849 F.3d 17, 35 (2d Cir. 2017).
The present case makes clear why officers
should be held liable for recklessness that results in
the suicide of a pretrial detainee. No officer ever even
asked Rowell the simple question of whether she was
depressed or suicidal. OB, 8–12, 14. The officers just
ignored any suicidal mood she might have, because
they received no suicide prevention training. Id. at 6–
12, 14. This was reckless behavior, especially given
her display of suicide risk factors and the high
prevalence of jail suicides. See id. 4, 12–13. Thus, this
is the optimal case to set a floor on what jail officers
must do, under Fourteenth Amendment, to protect
against the suicide of those individuals who are being
held on mere criminal charges without a conviction.
Finally, after concluding (incorrectly) that
there was no deliberate indifference, the Tenth
Circuit said that there was no municipal liability
because there was “not a pattern of conduct that
would establish actual notice of a substantially high
risk of suicide.” Pet. App. 8a. However, it appears
that every published opinion to address the issue has
reached the opposite conclusion: inmate suicide is so
pervasive and common among jails and prisons that
those entities are always on actual notice of a
substantially high risk of inmate suicide. See, e.g.,
Woodward v. Corr. Med. Servs, 368 F.3d 917, 929 (7th
Cir. 2004); Perry for Brooks v. St. Louis, 399 F. Supp.
3d 863, 882 n.15 (E.D. Mo. 2019). Indeed, prior to the

5

opinion at issue, the Tenth Circuit itself held that
even when there had not been a pattern of tortious
conduct, a violation of federal rights may have been a
fairly obvious consequence of a jail’s failure to train its
officers to recognize and appropriately handle inmates
with mental illness. Olsen v. Layton Hills Mall, 312
F.3d 1304, 1320 (10th Cir. 2002). Furthermore, in this
particular case, there actually were two prior suicide
attempts at the Rio Blanco County Jail, one of them
occurring just a year prior to Rowell’s suicide and the
other resulting in another inmate’s death-by-hanging
in the jail. Pet. App. 8a; OB, 4.
For these reasons, if this Court grants
certiorari on the first question presented to resolve
the circuit split, then this Court should also grant
certiorari on the second question presented to correct
the Tenth Circuit’s error. Alternatively, if this Court
grants certiorari to resolve the circuit split in Strain,
then this Court should ultimately vacate the
judgment below and remand this case, giving the
Tenth Circuit an opportunity to reconsider its
reasoning on both questions presented here.
Statement of the Case
A.

Factual Background

The Rio Blanco County Jail (the “Jail”) did not
require its officers to undergo any suicide prevention
training. Pet. App. 3a; OB, 6. Rather, as part of “on
the job” training, the Jail gave officers a questionnaire
to administer to inmates during booking, which
included only a single question about suicide: “Are you
or have you been suicidal?” Pet. App. 3a; OB, 6. If an
inmate said that he or she was suicidal, then Jail

6

officers would put that inmate in a safety gown and a
safe cell. OB, 6.
The Jail’s manual said that every hour or less,
officers were supposed to conduct a “jail check,”
walking up to each cellblock, looking in through the
window, and checking on the safety of each inmate.
Pet. App. 3a; OB, 15.
The Jail installed a video camera in a hallway,
but did not install any video or audio monitoring
equipment in any of the cells or cellblocks. OB, 15.
Each cellblock had a pay phone with a thirty-threeinch armored telephone cable. Id. at 16. Officer Tim
Cook and other Jail workers knew that these cords
could be used to commit suicide, yet they took no
action to eliminate this suicide risk. Id. at 16–17.
On February 12, 2016, Katherine Rowell was
brought to jail on a charge of violating a protection
order. Pet. App. 1a–2a; OB, 12. She was not convicted
of that crime. OB, 12.
Officer Cook booked her into the Jail. OB, 8.
He left the booking questionnaire blank. Id. at 8–9.
He did not make any notation of Rowell’s missing
teeth, even though the booking questionnaire
instructed him to ask both “Missing body parts[?]” and
“False teeth or removable bridges[?]” Id. at 10. He did
not make any notation of Rowell’s high blood pressure,
even though the booking questionnaire instructed him
to ask, “Are you diagnosed with high blood
pressure[?]” Id. at 11. At his deposition, he did not
remember booking Rowell in and was “entirely reliant
on what the paper trail [was] saying.” Id. Thus, a
reasonable jury could conclude that he did not
administer the booking questionnaire to Rowell and

7

did not ask her if she was suicidal. Id. at 12; see also
Pet. App. at 6a, 16a (the district court and the Tenth
Circuit each assumed that Officer Cook did not ask
Rowell the booking question on suicide).
Thereafter, she and other inmates were
overseen by Officers Johnny Murray and Clinton
Kilduff during the day, and Officer Jeremy Muxlow
and another officer at night. OB, 12. From February
12 to 15, 2016, Officer Murray, as well as Officers
Kilduff and/or Muxlow, knew the following:
• Officers Murray and Muxlow knew that Rowell
was going through difficulty in her romantic
relationship. Id.
• Officer Murray knew that Rowell used
methamphetamine and alcohol as “an integral
part” of her life and people go through
withdrawal when they stop using these drugs.
Id. at 13.
• Officer Murray and Muxlow knew that Rowell
slept most of the time that she was there. Id.
• Officers Murray, Kilduff, and Muxlow knew
that Rowell never went out for recreation. Id.
• Officers Murray, Kilduff, and Muxlow knew
that Rowell experienced loss of appetite. Id.
• Officers Murray, Kilduff, and Muxlow knew
that Rowell lost interest in communicating. Id.
• Officers Murray, Kilduff, and Muxlow knew
that Rowell was socially isolated. Id.
• Officer Murray knew that Rowell was
withdrawn. Id.
As Plaintiffs’ experts opined, reasonable officers
trained in suicide prevention would have recognized
that Rowell was suicidal from her obvious display of
suicide risk factors. Id.

8

Despite their observations, Officers Murray,
Kilduff, and Muxlow had only brief interactions with
Rowell, such as asking her if she wanted food or
exercise. Id. at 14. In these interactions, they made
no effort to find out Rowell’s mood, mental health,
depression, or whether she was feeling suicidal. Id.
From Rowell’s booking through her suicide,
even according to the officers’ own Jail logs, they often
failed to perform a jail check every hour or less. Pet.
App. 3a; OB, 18. Of the sixty-nine jail checks that
they performed, a third of the time they waited longer
than an hour, eleven times they waited longer than an
hour and a half, six times they waited longer than two
hours, and one time they waited nearly three hours.
OB, 18.
The hallway video reveals that the jail checks
were even less frequent than what the officers entered
into the logs. See id. at 18–19, 22. Specifically, at 1:55
pm on February 15, 2016, Officers Kilduff and then
Murray discovered that Rowell had hung herself. Id.
at 19. Thereafter, Officers Kilduff and Murray
repeatedly said that Officer Murray had conducted a
jail check at 1:00 pm that day. Id. at 20–22. They
indicated this in the Jail’s logs, in typewritten reports,
in interviews with the Colorado Bureau of
Investigation, and at their depositions. Id. But the
video evidence, combined with jail layout maps that
Officer Murray wrote at his deposition, revealed that
in reality, Officer Murray had not checked on Rowell’s
safety at 1:00 pm. Id. at 22; see also id. Pet. App. 3a,
20a, 37a (the district court and the Tenth Circuit each
assumed that no officer checked on Rowell’s safety at
or around 1:00 pm on February 15, 2016).

9

Thus, prior to discovering Rowell’s hanging
body, the most recent time that any officer checked on
her safety was at 12:05 pm. Pet. App. 3a, 20a, 37a;
OB, 24. When Officer Kilduff finally checked on her
again nearly two hours later, at 1:55 pm, he
discovered that she had hung herself with a thirtythree inch armored telephone cable. Pet. App. 3a, 20a,
37a; OB, 24. The cable was so long, she was able to
wrap it around her neck two times. OB, 24. She died
from her injuries. Pet. App. 3a.
B.

Procedural Background

Based on Rowell’s death, her Estate brought, as
pertinent here, a section 1983 claim against Sheriff
Mazzola in his official capacity based on the
underlying constitutional violations by Officers
Muxlow, Cook, Kilduff, and Murray. OB, 24.
The defendants moved for summary judgment
on all claims. Id. In response, the Estate argued that
for their official capacity claim, they did not have to
show that any particular officer actually knew that
Rowell had a substantial risk of suicide. Id. at 25.
Rather, officers violate the Fourteenth Amendment
rights of a pretrial detainee when the officers’ actions
are objectively unreasonable. See Kingsley, 135 S.Ct.
at 2473; OB, 25.
The Estate further argued that for three
reasons, the Jail was liable for its officers’ violations
of Rowell’s constitutional rights. OB, 25. First, the
Jail never trained its officers in suicide prevention,
which caused the officers’ total failure to ever inquire
about Rowell’s mental health, depression, or suicidal
tendencies. Id. Second, this deficient training also
caused Jail officers to wait longer than an hour

10

between jail checks, despite inmates having access to
33-inch long armored cables. Id. Third, even if
neither theory supported liability when analyzed
individually, the two theories, collectively, supported
imposing liability on the Jail. Id. at 26.
In the summary judgment order, the district
court decided that the Jail was not liable on the official
capacity claim. Pet. App. 40a. As pertinent here, the
court reasoned that the Jail could not be liable for
failing to train its officers, because none of the officers
had actually known that Rowell had a substantial risk
of suicide. Id. at 36a–38a.
The plaintiffs appealed from this summary
judgment order. Id. at 2a. After the case was fully
briefed, the Tenth Circuit held that Kingsley’s
objective standard should not be extended to pretrial
detainees’ claims that defendants were deliberately
indifferent to their serious medical needs. See Strain,
977 F.3d at 990–93; Pet. App. 5a & n.3.
Based on Strain, the Tenth Circuit reasoned
that Kingsley’s objective standard does not apply in
this case. Pet. App. 5a n.3. The Tenth Circuit then
concluded that the plaintiffs “cannot establish an
underlying constitutional violation by any of the jail’s
officers because they did not have subjective
awareness of Ms. Rowell’s risk of suicide.” Id. at 5a.
The Tenth Circuit also reasoned that despite a prior
suicide-by-hanging at the Jail and a recent suicide
attempt there, the Jail did not have actual notice of a
substantially high risk of suicide among the Jail’s
inmates. Id. at 8a–9a. The Tenth Circuit then
affirmed the grant of summary judgment on the
section 1983 claim. Id. at 9a.

11

Reasons for Granting the Petition
I.

After Kingsley, the Circuits are Split on
Whether Jail Officials Violate a Pretrial
Detainee’s Fourteenth Amendment Rights
by Being Reckless To, Without Actually
Knowing of, the Inmate’s Serious Medical
Need

Prior to the filing of this petition for certiorari,
this Court received very good briefing on the circuit
split at issue: it was well briefed in the petition for
certiorari in Strain v. Regalado, (U.S. Sup. Ct. No. 201562, cert petition filed May 7, 2021) (hereinafter, the
“Strain cert petition”). The arguments presented in
this Part I are simply intended to supplement the very
fine briefing on this issue by the petitioner in Strain.
When a convicted prisoner is denied medical
treatment, his or her section 1983 claim is based on
the Eighth Amendment’s Cruel and Usual
Punishments Clause. Estelle v. Gamble, 429 U.S. 97,
104 (1976). He must prove “deliberate indifference,”
proving both an objective component, which is an
unreasonable risk of harm to health, and a subjective
component, which is the state of mind of the prison
officers alleged to have committed the violation.
Helling v. McKinney, 509 U.S. 25, 30–31 (1993).
Death by suicide satisfies the objective component.
Cox v. Glanz, 800 F.3d 1231, 1240 n.3 (10th Cir. 2015)
(collecting cases).
The subjective component is
satisfied if the prison officer actually knew of and
disregarded a substantial risk to an incarcerated
inmate’s health or safety. Farmer v. Brennan, 511
U.S. 825, 844 (1994).

12

In contrast to a convicted prisoner, when a
pretrial detainee is denied medical treatment, his or
her section 1983 claim is based on the Fourteenth
Amendment’s Due Process Clause.
See Bell v.
Wolfish, 441 U.S. 520, 545 (1979). Prior to 2015,
federal circuits held that such a claim was subject to
the same two-part “deliberate indifference” test as a
convicted prisoner’s Eighth Amendment claim.
Caiozzo v. Koreman, 581 F.3d 63, 71 n.4 (2d Cir. 2009)
(collecting cases), overruled by Darnell, 849 F.3d 17.
In 2015, however, this Court held that a
pretrial detainee’s Fourteenth Amendment claim is
subject to a different test. See Kingsley, 135 S.Ct. at
2473. Specifically, to prove an excessive force claim, “a
pretrial detainee must show only that the force
purposely or knowingly used against him was
objectively unreasonable.” Id. The Kingsley Court
reached this conclusion because the Due Process
Clause is different from Cruel and Unusual
Punishments Clause: “The language of the two
Clauses differs, and the nature of the claims often
differs. And, most importantly, pretrial detainees
(unlike convicted prisoners) cannot be punished at all,
much less maliciously and sadistically.” Id. at 2475
(quotations omitted).
The circuits split on whether Kingsley’s
objective standard applies to pretrial detainees’ other
Fourteenth Amendment claims, including claims of
inadequate medical treatment.
Specifically, the
Second, Seventh, and Ninth Circuits have held that
Kingsley’s objective standard applies beyond just
excessive force claims, applying to other Fourteenth
Amendment claims by pretrial detainees.
See
Miranda v. Cty. of Lake, 900 F.3d 335, 353–54 (7th
Cir. 2018); Darnell, 849 F.3d at 35–36; Castro v. Cty.

13

of Los Angeles, 833 F.3d 1060, 1070 (9th Cir. 2016).
Each of those three circuits also applies Kingsley’s
objective standard to pretrial detainees’ claims of
inadequate medical care. See Charles v. Orange Cty.,
925 F.3d 73, 87 (2d Cir. 2019); Miranda, 900 F.3d at
353–54; Gordon v. Cty. of Orange, 888 F.3d 1118,
1124–25 (9th Cir. 2018). In contrast to those three
circuits, the Fifth, Eighth, Tenth, and Eleventh
circuits hold that Kingsley’s objective standard only
applies to pretrial detainee’s claims of excessive force.
See Strain, 977 F.3d at 993; Whitney v. City of St.
Louis, Missouri, 887 F.3d 857, 860 n.4 (8th Cir. 2018);
Nam Dang v. Sheriff, Seminole Cty. Fla., 871 F.3d
1272, 1279 n.2 (11th Cir. 2017); Alderson v. Concordia
Par. Corr. Facility, 848 F.3d 415, 420 n.4 (5th Cir.
2017). At least two circuits have observed the split
without yet taking a position. See Mays v. Sprinkle,
992 F.3d 295, 301–02 & n.4 (4th Cir. 2021); Beck v.
Hamblen Cty., Tennessee, 969 F.3d 592, 601 (6th Cir.
2020).
The circuits are hopelessly deadlocked. Viewed
chronologically, there is no trend among the decisions,
but instead just vacillation among the circuits: the
Ninth Circuit applied Kingsley’s objective standard
beyond excessive force claims (Castro, 833 F.3d at
1070), then the Fifth Circuit did not (Alderson, 848
F.3d at 420 n.4), then the Second Circuit did (Darnell,
849 F.3d at 35–36), then Eleventh Circuit did not
(Nam Dang, 871 F.3d at 1279 n.2), then the Eighth
Circuit did not (Whitney, 887 F.3d at 860 n.4), then
the Seventh Circuit did (Miranda, 900 F.3d at 353–
54), then the Tenth Circuit did not (Strain, 977 F.3d
at 993).
Although the Tenth Circuit is the most recent
circuit to pick a side, the reasoning in Strain is not

14

any more bulletproof than the reasoning in previous
decisions on that side. Indeed, each portion of Strain’s
reasoning is expertly and concisely countered in the
Strain cert petition, 21–22.
For three additional reasons, the Tenth Circuit
is wrong and the circuits that reach the contrary
conclusion are right. First, Kingsley’s holding is
broad: the Kingsley Court described its holding as
applying to “the challenged governmental action”
generally, not just excessive force claims specifically.
135 S.Ct. at 2473–74, quoted in Gordon, 888 F.3d at
1124.
Second, because any state-of-mind requirement
arises under the Constitution and not under section
1983, logically Kingsley’s holding must extend to all
pretrial detainees’ Fourteenth Amendment claims.
Gordon, 888 F.3d at 1124; Miranda, 900 F.3d at 352.
As the Seventh Circuit reasoned, “We see nothing in
the logic the Supreme Court used in Kingsley that
would support . . . dissection of the different types of
claims that arise under the Fourteenth Amendment’s
Due Process Clause.” Miranda, 900 F.3d at 352.
Third, “the Supreme Court has treated medical
care claims substantially the same as other conditions
of confinement violations . . . .” Gordon, 888 F.3d at
1124. For example, this Court reasoned:
[W]e see no significant distinction
between claims alleging inadequate
medical care and those alleging
inadequate “conditions of confinement.”
Indeed, the medical care a prisoner
receives is just as much a “condition” of
his confinement as the food he is fed, the

15

clothes he is issued, the temperature he
is subjected to in his cell, and the
protection he is afforded against
other inmates.
Wilson v. Seiter, 501 U.S. 294, 303 (1991), quoted in
Gordon, 888 F.3d at 1124.
For these reasons, the Tenth Circuit fell on the
wrong side of a split among the Circuits, and this
Court should take up the issue to resolve that split.
II.

The Circuit Split is Especially Important
in Cases Involving a Pretrial Detainee’s
Suicide

Although the Stain cert petition both asks this
Court to address the circuit split, neither of those
cases involves a pretrial detainee’s suicide. The
circuit split at issue, however, will have a dramatic
impact on cases involving pretrial detainee’s suicides,
as history teaches us.
In 1976, this Court concluded that “deliberate
indifference to serious medical needs of prisoners
constitutes the unnecessary and wanton infliction of
pain, proscribed by the Eighth Amendment.” Estelle,
429 U.S. at 104 (quotations and citation omitted).
Thereafter, the circuits applied differing standards of
deliberate
indifference to
prisoners’
Eighth
Amendment claims, with some applying a
recklessness standard and others applying a
negligence standard. See Farmer, 511 U.S. at 832
(comparing McGill v. Duckworth, 944 F.2d 344, 348
(7th Cir. 1991) (recklessness standard), with Young v.
Quinlan, 960 F.2d 351, 360–361 (3rd Cir. 1992)
(negligence standard)).

16

However, in 1994, this Court decided Farmer v.
Brennen, a section 1983 case involving the failure to
protect a convicted prisoner from attack by other
inmates. 511 U.S. at 831–32, 841. In Farmer, this
Court held that the prison officers violated the Eighth
Amendment only if they actually knew of and
disregarded an excessive risk to inmate health or
safety. Id. at 847.
The federal circuits decided that this holding
extended to (1) pretrial detainee’s Fourteenth
Amendment claims, Caiozzo, 581 F.3d at 71 n.4
(collecting cases); and (2) cases involving an inmates’
suicide, Kyla Magun, A Changing Landscape for
Pretrial Detainees? The Potential Impact of Kingsley
v. Hendrickson on Jail-Suicide Litigation, 116 Colum.
L. Rev. 2059, 2072 n.96 (2016) (collecting cases).
Thus, after Farmer, to prove a section 1983 claim
based on the suicide of a pretrial detainee or convicted
inmate, claimants had to prove that an officer or
officers actually knew of and disregarded a
substantial risk of suicide. Magun, supra, 2072 &
n.96 (collecting cases).
The federal circuits’ expansion of Farmer had a
dramatic impact. Before Farmer, civil claims based
on jail suicide were successful 29% of the time. Ross,
supra, at 39 fig. 1. After Farmer, they were successful
only 17% of the time, a 41.4% drop. Ross, supra, at 39
fig. 1.
Furthermore, in the years since Farmer, people
are increasingly held in jail on mere criminal charges,
not convictions. In 1995, jails held over 500,000
inmates, with about half of them (56%) pretrial
detainees. Patrick M. Harrison & Allen J. Beck,

17

Ph.D., Prison and Jail Inmates at Midyear 2005, U.S.
Dep’t of Just., at 8 Tbls. 9 & 10 (May 2006),
https://www.bjs.gov/content/pub/pdf/pjim05.pdf. After
fairly steady increase over the years, by 2019, jails
held over 700,000 inmates, with about two-thirds of
them (65%) pretrial detainees. Id. (statistics from
1995 to 2005); Zhen Zeng, Ph.D. & Todd D. Minton,
Jail Inmates in 2019, U.S. Dep’t of Just., at 5 Tbl. 3
(Mar.
2021),
https://www.bjs.gov/content/pub/pdf/ji19.pdf
(statistics from 2005 to 2019).
Suicide is a much greater problem among
pretrial detainees than it is among convicted inmates,
as scholars have observed and as is evident from U.S.
Department of Justice data. See, e.g., David E.
Patton, Fredrick E. Vars, Jail Suicide by Design, 68
UCLA L. Rev. Discourse 78, 86–87 (2020).
Specifically, prisons, of course, hold no pretrial
detainees. And in prisons, suicide accounts for about
5% of deaths. E. Ann Carson, Ph.D., Mortality in
State and Federal Prisons, 2001–2018, U.S. Dep’t of
Just.,
at
7
Tbl.
2
(Apr.
2021),
https://www.bjs.gov/content/pub/pdf/msfp0118st.pdf.
But in jails, suicide accounts for about 30% of deaths.
E. Ann Carson, Ph.D., Mortality in Local Jails, 2000–
2018, U.S. Dep’t of Just., at 6 Tbl. 2 (April 2021),
https://www.bjs.gov/content/pub/pdf/mlj0018st.pdf.
Indeed, in jails, unlike prisons, suicide is the leading
cause of death. Id. at 1.
Furthermore, suicides are most likely to
happen among the inmates least likely to be
convicted, namely, the inmates who have been in jail
for the least amount of time: 13.7% of jail suicides
occur within a day of admission, 22.7% occur within
two days of admission, and nearly half occur within a

18

week of admission. Mumola, supra, at 8. In prisons,
in contrast, just 7% of suicides occur within a month
of admission. Id. at 9.
As Judge Posner put it, “[T]he risk [of suicide]
is concentrated in the early days and even hours of
being placed in jail, before the inmate has had a
chance to adjust to his dismal new conditions.”
Boncher v. Brown Cty., 272 F.3d 484, 486 (7th Cir.
2001). Apparently, the conditions are even more
dismal if the inmate is being held without having been
convicted of a crime.
Accordingly, after Farmer, the federal courts
have been inundated with civil claims based on
inmate suicide or inmate self-harm. See Draper,
supra, 79 A.L.R.3d 1210 (2021 Supp.) (collecting
cases). Specifically, after 1995, eleven federal circuits
have published over one-hundred opinions addressing
the civil liability of prison or jail authorities for the
self-inflicted injuries or deaths of those in their
custody. See id.
There is only one such case from this Court, and
its holding was narrow. In Taylor v. Barkes, 135 S.
Ct. 2042, 2044 (2015), this Court held that in 1997,
inmates did not have a clearly established right to the
proper implementation of suicide prevention
protocols. But the Taylor Court did not address
whether such a right actually existed, even if not yet
clearly established. Id. And Taylor did not give this
Court an opportunity to address a question much
more central to civil claims based on inmate suicide:
when an inmate is being held without yet being
convicted, will a jail officer be held liable only if he
actually knew that the inmate was at a substantial

19

risk of suicide, or is it enough that the officer was
reckless to the substantial risk of suicide?
In light of everything that has happened after
Farmer, many scholars have argued for returning to a
standard of civil liability more favorable to claimants
in inmate suicide cases. See Magun, supra, 2085–
2086 & nn. 169–174 (collecting scholarly articles).
And as the Second Circuit has observed,
adopting the Kingsley recklessness standard in such
cases by pretrial detainees will not open the floodgates
to litigation. Darnell, 849 F.3d at 36. Rather, prior to
Farmer, some courts already applied a recklessness
standard, or even a negligence standard, in all jail and
prison cases involving deliberate indifference to
serious medical needs. See Farmer, 511 U.S. at 832
(citing McGill, 944 F.2d at 348 (7th Cir. 1991)
(recklessness standard) and Young, 960 F.2d at 360–
361 (negligence standard)).
Returning to a
recklessness standard for just a portion of those cases,
the ones involving pretrial detainees, will simply
ensure that the federal circuits apply a standard of
liability consistent with Kingsley. Darnell, 849 F.3d
at 36 (endorsing this reasoning).
Thus, in light of Kingsley and the resultant
circuit split, this Court should consider whether a
recklessness standard applies at least in those inmate
suicide cases where the inmate who died had not even
been convicted of a crime.

20

III.

In the Present Case Involving a Pretrial
Detainee’s Suicide, Jail Officers Were
Reckless in Numerous Ways, Making This
Case an Ideal Vehicle for Addressing the
Circuit Split

In the circuit split presently at issue, four
circuits have concluded that if a pretrial detainee’s
medical needs are not met, his or her Fourteenth
Amendment rights are violated only if a jail officer
“knows of and disregards an excessive risk to inmate
health or safety; the official must both be aware of
facts from which the inference could be drawn that a
substantial risk of serious harm exists, and she must
also draw the inference.” Strain, 977 F.3d at 990
(quotations omitted); accord Alderson, 848 F.3d at
419–20; Whitney, 887 F.3d at 860; Nam Dang., 871
F.3d at 1280.
Three other circuits, in contrast, have
concluded that if a pretrial detainee’s medical needs
are not met, her or she can show a violation of
Fourteenth Amendment rights simply by showing
that an officer “recklessly failed to act with reasonable
care to mitigate the risk that the [medical] condition
posed to the pretrial detainee, even though the
defendant-officer knew, or should have known, that
the condition posed an excessive risk to health or
safety.” Darnell, 849 F.3d at 35–36 & n. 16; accord
Miranda, 900 F.3d at 353–54; Castro, 833 F.3d at
1070–71. Even in those three circuits, however, mere
negligence is not enough to show a Fourteenth
Amendment violation. Miranda, 900 F.3d at 353–54;
Darnell, 849 F.3d at 36; Castro, 833 F.3d at 1071.
Concerning recklessness, even in jail or prison
suicide cases that result in a lawsuit, the arresting or

21

booking officer usually at least administers a
questionnaire that asks the inmate whether he or she
is suicidal, and the inmate usually responds in some
way that at least suggests that he or she is not. See,
e.g., Est. of Bonilla v. Orange Cty., Texas, 982 F.3d
298, 303 (5th Cir. 2020); Greenway v. S. Health
Partners, Inc., 827 F. App'x 952, 956–57 (11th Cir.
2020); Est. of Downard v. Martin, 968 F.3d 594, 597,
601 (6th Cir. 2020); Pulera v. Sarzant, 966 F.3d 540,
551, 545 (7th Cir. 2020); Baker-Schneider v. Napoleon,
769 F. App'x 189, 190 (6th Cir. 2019); A.H. v. St. Louis
Cty., Missouri, 891 F.3d 721, 724 (8th Cir. 2018);
Nallani v. Wayne County, 665 F. App'x 498, 507–08
(6th Cir. 2016); Matos ex rel. Matos v. O'Sullivan, 335
F.3d 553, 554 (7th Cir. 2003); Baker-Schneider v.
Napoleon, 769 F. App'x 189, 190 (6th Cir. 2019);
Nallani v. Wayne Cty., 665 F. App'x 498, 501 (6th Cir.
2016); Carroll v. Lancaster Cty., 301 F. Supp. 3d 486,
493, 501 (E.D. Pa. 2018); Hill v. Las Vegas Metro.
Police Dep't, 197 F. Supp. 3d 1226, 1229 (D. Nev.
2016), aff’d, 705 F. App'x 616 (9th Cir. 2017); cf.
generally 79 A.L.R.3d 1210 (in case descriptions, most
references to intake, booking, or screening involve a
suicide question being asked and suicidal feelings
being denied).
Indeed, questionnaires about mental health
and suicide, administered and filled out by jail
officers, are so important that Judge Posner recently
chose to reproduce photocopies of them at the end of
his opinion. Belbachir v. Cty. of McHenry, 726 F.3d
975, 981 (7th Cir. 2013). In that case, an officer may
have been deliberately indifferent to the inmate’s
suicide risk, partly because the suicide question had

22

originally been marked “yes” but then scratched out
and marked “no.” Id. at 981–82.1
Indeed, when jail officers may not have ever
asked a pretrial detainee whether he was suicidal, a
court held that they may have recklessly violated his
Fourteenth Amendment rights. Stidimire v. Watson,
2018 WL 4680666 (S.D. Ill. No. 17-CV-1183, Sept. 28,
2018) (unpublished order). Specifically, in Stidimire,
an arresting officer administered a Field Booking
Form which indicated that Stidimire was not suicidal.
Id. at *1. However, the arresting officer made errors
on that form. Id. Thereafter, the booking officer,
Officer Toth, observed that Stidimire was disturbed
and scared, yet Officer Toth did not inquire about his
mental health, instead relying on the error-filled
form. Id. Over the next four days, the officers in
charge of the cellblock, Officers Knyff and Ripperada,
ignored Stidimire’s risk factors for suicide, such as his
fear, distress, periods of inconsolable crying, and
periods being withdrawn and quiet. Id. at *2. On the
day of Stidimire’s suicide, Officer Ripperda checked
Stidimire’s cellblock at around 5:30 pm, but he rushed
through the block and failed to observe Stidimire in
his cell. Id. At around 6:30 pm, Officer Ripperda
checked the cellblock again and discovered that
Stidimire had hung himself with a bed sheet. Id. On
these facts, the Court concluded that Officers Toth,
Of course, an officer could avoid such errors by deciding not to
administer a suicide questionnaire at all. But such behavior
would be even more reckless than making mistakes on the
suicide questionnaire. And a jail should not be allowed to
escape section 1983 liability by telling its officers to bury their
heads in the sand and decline to administer any suicide
questionnaires at all. If that were the law, it would be absurd.
Cf. OB, 40–42 (raising a similar absurdity argument in the
Tenth Circuit).
1

23

Knyff, and Ripperada each may have been at least
reckless to the Stidimire’s risk of suicide. Id. at *4.
The facts here are remarkably similar to, and
in many ways worse than, the facts in Stidimire. In
Stidimire, the booking officer, Officer Toth, at least
relied on a filled-out questionnaire which suggested,
despite its errors, that Stidmire was not suicidal. Id.
at *1. Here, in contrast, the booking officer, Officer
Cook, left the booking questionnaire entirely blank,
which was erroneous for many of the questions. OB,
8–12. Thus, unlike Officer Toth, Officer Cook did not
rely on any mental health questioning at all. See Pet.
App. 6a, 16a; OB, 12. And unlike Stidimire, Rowell
was never asked any questions concerning her mental
health during the period from her arrest to her death.
See Pet. App. 6a, 16a; OB, 12, 14.
In Stidimire, Stidimire displayed the suicide
risk factors of fear, distress, crying, withdrawal, and
silence. 2018 WL 4680666, at *2. Here, Rowell
displayed even more suicide risk factors, because she
was going through difficulty in her romantic
relationship,
experiencing
methamphetamine
withdrawal, slept most of the time, refused recreation,
lost appetite, lost interest in communicating, was
socially isolated, and was withdrawn. OB, 12–13.
In Stidimire, during Officers Knyff’s and
Ripperada’s shift, Officer Ripperada at least walked
through Stidimire’s cellblock at 5:50 pm and 6:30 pm,
even if he rushed through and failed to observe
Stidmire until seeing him hanging by a bedsheet.
2018 WL 4680666, at *2. Here, Officers Murray,
Kilduff, and Muxlow repeatedly waited longer than an
hour between safety checks, doing so a third of the
time during Rowell’s confinement. Pet. App. 3a; OB,

24

18. And during the final hours of that confinement,
Officers Murray and Kilduff waited nearly two hours,
from 12:05 pm to 1:55 pm, without checking on
Rowell’s safety. Pet. App. 3a, 20a, 37a; OB, 22. When
Officer Kilduff finally checked on her at 1:55 pm, she
had hung herself, not with a bed sheet, but with a 33inch armored cable that presented an obvious risk of
inmate suicide. OB, at 16–17, 24.
Thus, for two reasons, the particular facts of
this case warrant granting certiorari. First, Officers
Cook, Murray, Kilduff, and Muxlow were exceedingly
reckless in numerous ways, both by failing to ask
Rowell if she was suicidal and by failing to check on
her despite her obvious display of suicide risk factors.
Id. at 16–24. Their conduct was so reckless that, after
a grant of certiorari, this Court can focus on
developing the law rather than parsing the facts.
That is, the conduct here is so exceedingly reckless
that the precedent set by this case can provide a mere
floor for what officers must do: they must at least ask
a pretrial detainee if he or she is suicidal, and they
must at least check on him or her regularly, especially
if he or she is displaying obvious suicide risk factors.
Alternatively, if this Court feels that any one officer
here was not reckless, then this Court can still
consider the recklessness of the other officers, because
each officer was reckless in slightly different ways
(e.g., failing a booking question as opposed to failing
to conduct timely safety checks).
Second, justice demands granting certiorari on
the particular facts here. Officer Cook did not just fail
to ask Rowell if she was suicidal when booking her.
Pet. App. 6a, 16a; OB, 12. He did so even though, as
he conceded at his deposition, he had previously
thought that an inmate could use the 33-inch armored

25

cable to commit suicide. OB, 21–22. Officers Murray
and Kilduff did not just wait nearly two hours without
checking on Rowell’s safety, ultimately discovering
that she had hung herself. Pet. App. 3a, 20a, 37a; OB,
22.
In addition, after they did that, they
misrepresented that fact over and over again, telling
the Colorado Bureau of Investigation and
undersigned counsel that Murray had checked on
Rowell’s safety less than an hour before discovering
her hanging. OB, 19–22.
Despite the egregiousness of the officers’
conduct, the Tenth Circuit just glossed over it. Pet.
App. 2a–3a, 5a–6a. That is not justice. Rowell’s
family deserves more. This Court should grant this
petition and take a hard look at whether Officers
Cook, Murray, Kilduff, and Muxlow violated Rowell’s
Due Process rights, causing her untimely death.
IV.

Concerning
the
Second
Question
Presented, this Court Should Either
Correct the Tenth Circuit’s Error or Give
the Tenth Circuit the Opportunity to Do
So

The Tenth Circuit devoted the bulk of its
opinion to analyzing whether any particular officer
acted with deliberate indifference to Rowell’s risk of
suicide. Id. at 6a–8a. After concluding (incorrectly)
that there was no deliberate indifference, the Tenth
Circuit said, “We also note that the Estate cannot
show state of mind, an essential element of a
municipal-liability claim.” Id. at 8a. Without citing
any authority that would support its position, the
Tenth Circuit reasoned that there was “not a pattern
of conduct that would establish actual notice of a
substantially high risk of suicide.” Id. at 9a.

26

However, as was cited to the Tenth Circuit
below, the courts addressing this legal issue appear to
have all reached the opposite conclusion. Woodward
368 F.3d at 929; Perry for Brooks, 399 F. Supp. 3d at
882 n.15; accord J.K.J. v. Polk, 960 F.3d 367, 381 (7th
Cir. 2020); OB, 44; Reply Brief in the Tenth Circuit
(hereinafter, “RB”), 22. It does not matter whether a
particular jail or prison has had suicides or suicide
attempts in the past. Woodward, 368 F.3d at 929.
Rather, inmate suicide is so pervasive and common
among jails and prisons in general that those entities
are always on actual notice of a substantially high risk
of inmate suicide. Id. As one court put it, a detention
center “does not get a ‘one free suicide’ pass.” Id.
Indeed, as was cited below (RB, 22), a previous,
published opinion by the Tenth Circuit had reached
an even broader conclusion than the one reached in
Woodward and its progeny. See Olsen, 312 F.3d at
1320. Specifically, even when there had not been a
pattern of tortious conduct, the Olsen Court held that
a violation of federal rights may have been a fairly
obvious consequence of a jail’s failure to train its
officers to recognize and appropriately handle inmates
with mental illness. Id.
In the present case, the panel did nothing to
address the pertinent reasoning in Woodward, its
progeny, or Olsen. See Pet. App. at 8a–9a.
Furthermore, in this particular case, numerous
inmates had attempted suicide at the Rio Blanco
County Jail prior to Rowell’s suicide, and one of those
inmates had died from the attempt. Pet. App. 8a; OB,
4. Specifically, a previous inmate had committed
suicide by hanging and then, just a year prior to

27

Rowell’s suicide, another inmate had attempted
suicide by drowning. Pet. App. 8a; OB, 4.
Accordingly, if this Court grants certiorari on
the first question presented, then this Court should
also grant certiorari on the second question presented
to correct the Tenth Circuit’s error.
Alternatively, if this Court grants certiorari to
resolve the circuit split in Strain, then this Court
should ultimately vacate the judgment below and
remand the case, giving the Tenth Circuit an
opportunity to reconsider its reasoning on both
questions presented.
On the second question presented, the Tenth
Circuit did not make clear that it was expressing a
wholly independent ground for its decision. See Pet.
App. 8a–9a. Indeed, it would have been very peculiar
for the Tenth Circuit to have decided, in an
unpublished opinion, that its decision was wholly
supported by a minimally-analyzed ground that was
contrary to every published opinion addressing the
issue (i.e., Woodward and its progeny), as well as
contrary to a prior, published opinion by the Tenth
Circuit, namely, Olsen. Indeed, the panel here lacked
the power to overrule Olsen: “absent an intervening
Supreme Court or en banc decision justifying such
action, [a panel of the Tenth Circuit] lack[s] the power
to overrule prior Tenth Circuit precedent.” Barnes v.
United States, 776 F.3d 1134, 1147 (10th Cir. 2015)
(quotations and emphasis omitted).
As this Court has observed, it is appropriate to
grant certiorari, vacate the judgment below, and
remand the case when “‘intervening developments
reveal a reasonable probability that the decision

28

below rests upon a premise that the lower court would
reject if given the opportunity for further
consideration, and where it appears that such a
redetermination may determine the ultimate
outcome’ of the matter.” Wellons v. Hall, 558 U.S. 220,
225 (2010) (quoting Lawrence v. Chater, 516 U.S. 163,
167 (1996)).
In Wellons, this Court reasoned, “The Eleventh
Circuit’s opinion is ambiguous in significant respects.
It would be highly inappropriate to assume away that
ambiguity in respondent’s favor.” Id. The same
reasoning applies here. On the second question
presented, it is at least ambiguous whether the Tenth
Circuit viewed its reasoning as a separate and
independent ground for its decision. See Pet. App. 8a–
9a. It would be highly inappropriate to assume away
that ambiguity. Rather, at the very least, this Court
should remand the second question to the Tenth
Circuit so that it may consider that ground in depth,
including considering whether that ground, standing
alone, would or would not support granting summary
judgment on the section 1983 claim.
Conclusion
For these reasons, the petitioners respectfully
request that this Court grant the present petition for
certiorari.
In the alternative, the petitioners
respectfully request that this Court hold the present
petition until after this Court resolves Strain (No. 201562), thereafter instructing the Tenth Circuit to
reconsider its decision here in light of Strain.

29

Respectfully submitted,
J. KEITH KILLIAN

Counsel of Record

DAMON J. DAVIS
BENJAMIN P. MEADE
KILLIAN DAVIS RICHTER &
KRANIAK, PC
202 North Seventh Street
Grand Junction, CO
keith@killianlaw.com
damon@killianlaw.com
ben@killianlaw.com
AUGUST 2021

Counsel for Petitioners

30

APPENDIX

1a
AppendixAND
A JUDGMENT OF
APPENDIX A — OPINION
THE UNITED STATES COURT OF APPEALS FOR
THE TENTH CIRCUIT, FILED MARCH 23, 2021
UNITED STATES COURT OF APPEALS
FOR THE TENTH CIRCUIT
March 23, 2021, Filed
No. 20-1067
(D.C. No. 1:18-CV-00378-REB-GPG) (D. Colo.)
GARY HEIDEL, INDIVIDUALLY; MICHELE
ASCHBACHER, INDIVIDUALLY; CAMILLE
ROWELL, INDIVIDUALLY; KERSTEN
HEIDEL, INDIVIDUALLY; MICHAEL ROWELL,
INDIVIDUALLY AND AS THE PERSONAL
REPRESENTATIVE OF THE ESTATE OF
CATHERINE ROWELL,
Plaintiffs-Appellants,
v.
SHERIFF ANTHONY MAZZOLA, IN HIS
INDIVIDUAL AND OFFICIAL CAPACITY;
SERGEANT JEREMY MUXLOW, IN HIS
INDIVIDUAL CAPACITY; DEPUTY KIM COOK,
IN HIS INDIVIDUAL CAPACITY; DEPUTY
CLINTON KILDUFF, IN HIS INDIVIDUAL
CAPACITY; DEPUTY JOHNNY MURRAY,
IN HIS INDIVIDUAL CAPACITY,
Defendants-Appellees.

2a
Appendix A
ORDER AND JUDGMENT*
Before TYMKOVICH, Chief Judge, KELLY, and
PHILLIPS, Circuit Judges.**
Plaintiffs-Appellants Gary Heidel, Michele Aschbacher,
Camille Rowell, Kersten Heidel, and Michael Rowell
(collectively, “the Estate”), appeal from the district court’s
grant of summary judgment in favor of DefendantsAppellees in their civil rights action. Plaintiffs’ decedent,
Catherine Rowell, committed suicide while a pretrial
detainee at the Rio Blanco County Detention Center. On
appeal, the Estate argues there is ample evidence showing
the jail officials’ deliberate indifference, in violation of the
Fourteenth Amendment, toward Ms. Rowell’s risk of suicide.
Exercising jurisdiction under 28 U.S.C. § 1291, we affirm.
Background1
On February 12, 2016, Ms. Rowell was arrested
in Rangely, Colorado, and booked into the Rio Blanco
*
This order and judgment is not binding precedent, except under
the doctrines of law of the case, res judicata, and collateral estoppel.
It may be cited, however, for its persuasive value consistent with Fed.
R. App. P. 32.1 and 10th Cir. R. 32.1.

After examining the briefs and appellate record, this panel has
determined unanimously that oral argument would not materially
assist in the determination of this appeal. See Fed. R. App. P. 34(a)
(2); 10th Cir. R. 34.1(G). The case is therefore ordered submitted
without oral argument.
**

1. Because the parties are familiar with the case, we provide
only a limited factual recitation.

3a
Appendix A
County Detention Center (“the jail”). Ms. Rowell had
also been confined at the jail a few days earlier as well as
in February and August of 2015. Ms. Rowell spent most
of her time sleeping and refused to go outside during
recreation time. Although she ate some of her meals, Ms.
Rowell showed signs of a loss of appetite by either refusing
to eat or not finishing her meals. Officers believed this
behavior was consistent with their previous interactions
with Ms. Rowell. On February 15, an officer checked on
Ms. Rowell around 1:55 p.m. and discovered her in the
day room with a 33-inch armored telephone cord wrapped
around her neck. They were unable to revive her.
Sheriff Mazzola was in charge of the jail. For its part,
the jail’s suicide policy largely consisted of moving suicidal
inmates for more frequent observation and contacting a
mental health organization that provided services. Jail
officers received on-the-job suicide training but nothing
more formal than that. The policy manual also instructed
officers to conduct cell checks every hour, but the evidence
shows they occasionally waited longer. In fact, the parties
contest whether officers checked on Ms. Rowell at 1:00
p.m. — an hour before her suicide — and the district court
appeared to accept that they did not check on her for the
purpose of its analysis. See 5 Aplt. App. 1295.
The Estate brought this action against the sheriff in
his individual and official capacities and the other officers
in their individual capacities, raising federal and state-law
claims. The district court granted Defendants’ motion
for summary judgment on the federal claims concluding,
inter alia, that the Estate failed to establish an underlying

4a
Appendix A
constitutional violation or deliberate indifference by
Sheriff Mazzola. 2 The district court dismissed the
supplemental state law claims without prejudice.
Discussion
We review the district court’s grant of summary
judgment de novo, “drawing all reasonable inferences
and resolving all factual disputes in favor of [the Estate].”
Murphy v. City of Tulsa, 950 F.3d 641, 643 (10th Cir.
2019) (citation omitted). The Estate’s claim against
Sheriff Mazzola in his official capacity is equivalent to a
suit against a governmental entity; thus, our municipalliability cases apply. See Cox v. Glanz, 800 F.3d 1231,
1254 (10th Cir. 2015). For the Estate to succeed against
Sheriff Mazzola, it must show (1) an official government
policy or custom, (2) that caused a constitutional injury,
and (3) requisite state of mind. Schneider v. City of Grand
Junction Police Dep’t, 717 F.3d 760, 769 (10th Cir. 2013).
Claims based on a jail suicide usually implicate an
alleged “failure of jail officials to provide medical care
for those in their custody.” Cox, 800 F.3d at 1248 (citation
omitted). Therefore, recovery requires a showing of
deliberate indifference, id., which requires establishing an
2. After Defendants filed their motion for summary judgment,
the Estate voluntarily withdrew all of its claims except the officialcapacity claim against Sheriff Mazzola and the individual-capacity
claim against Sergeant Jeremy Muxlow. 5 Aplt. App. 1283. In its
order, the district court also granted summary judgment in favor
of Sergeant Muxlow. Id. at 1299. The Estate did not appeal that
decision.

5a
Appendix A
objective and subjective component. Strain v. Regalado,
977 F.3d 984, 989 (10th Cir. 2020). 3 Suicide satisfies the
objective component. Collins v. Seeman, 462 F.3d 757,
760 (7th Cir. 2006); see Martinez v. Beggs, 563 F.3d 1082,
1088 (10th Cir. 2009). For the subjective component, the
Estate must show that jail officials “knew [Ms. Rowell]
faced a substantial risk of harm and disregarded that
risk, by failing to take reasonable measures to abate it.”
Quintana v. Santa Fe Cnty. Bd. of Comm’rs, 973 F.3d
1022, 1029 (10th Cir. 2020) (citation omitted).
On appeal, the Estate argues that various jail officers
were deliberately indifferent because they failed to inquire
about Ms. Rowell’s suicidal tendencies, and they failed
to regularly check on her despite the risk of suicide.
The Estate also contends that, when viewed collectively,
the officers’ actions and other deficiencies at the jail are
enough to establish its deliberate-indifference claim. We
disagree.
To start, the Estate cannot establish an underlying
constitutional violation by any of the jail’s officers because
they did not have subjective awareness of Ms. Rowell’s risk
of suicide. Although excessive sleeping, signs of diminished
appetite, and refusing to go outside for recreation time can
arguably be viewed as suicidal characteristics, they can
3. The Estate argued that only the objective component needs
to be established under Kingsley v. Hendrickson, 576 U.S. 389, 135
S. Ct. 2466, 192 L. Ed. 2d 416 (2015). Aplt. Br. at 31-35. As the parties
recognize in their supplemental authority letters, this argument
has been foreclosed by our recent decision in Strain. See 977 F.3d
at 989-91.

6a
Appendix A
be “susceptible to a number of interpretations.” See Cox,
800 F.3d at 1253. Officers viewed this behavior as common
among inmates and consistent with Ms. Rowell’s previous
time at the jail. No evidence suggests that Ms. Rowell
mentioned her suicidal thoughts to an officer. Although the
Estate argues that the subjective component can be shown
by a risk of harm to the inmate population as a whole, our
cases have typically required knowledge about a specific
inmate’s risk of suicide. Id. at 1249-51.
Moreover, the officers’ failure to follow jail procedures
does not equate with a constitutional violation. The Estate
alleges that the booking questionnaire was not properly
administered and that officers failed to conduct hourly
cell checks. However, an officer’s failure to follow internal
jail policies does not automatically mean he or she acted
with deliberate indifference. See Hovater v. Robinson,
1 F.3d 1063, 1068 n.4 (10th Cir. 1993). Especially when
considering the lack of evidence regarding the officers’
subjective awareness, the alleged deviations from timely
cell checks and proper booking do not amount to deliberate
indifference in these circumstances.
The Estate’s comparison of the officers in this case
to the defendants in Lemire v. Cal. Dep’t of Corrs. and
Rehab., 726 F.3d 1062 (9th Cir. 2013), is not persuasive
because Lemire is readily distinguishable. In that case,
defendants violated jail policy by pulling all floor staff from
a unit to attend a staff meeting. Id. at 1070-71. The unit
— which housed mentally-ill patients taking psychotropic
medication — was left unmonitored for three-and-a-half
hours, which resulted in an inmate’s suicide. Id. There

7a
Appendix A
was a triable issue on deliberate indifference because the
defendants knew the specific risks posed to the inmates
and they knew it was the “primary” duty of floor staff to
prevent suicide attempts. Id. at 1078-79. Thus, the Lemire
defendants had far more specific knowledge about the
risks posed by inadequate supervision of inmates.
The Estate next attempts to show a cognizable injury
by aggregating every officers’ conduct with various
other shortcomings at the jail to show a systemic failure.
Even recognizing that combined actions or omissions
pursuant to a governmental policy or custom may violate
constitutional rights, see Garcia v. Salt Lake Cnty., 768
F.2d 303, 310 (10th Cir. 1985), the fact remains that the
officers lacked knowledge of Ms. Rowell’s risk of suicide.
As for any deficiencies in the jail’s training and policies,
we do not think that they amount to a systemic failure
given the reasonable efforts to “protect the prisoners’
safety and bodily integrity.” Cox, 800 F.3d at 1248 (citation
omitted). The Estate’s arguments about the jail’s facilities
“all sound remarkably like the tort of negligent design, a
state remedy, not a constitutional violation.” Bame v. Iron
Cnty., 566 F. App’x 731, 740 (10th Cir. 2014); see Farmer
v. Brennan, 511 U.S. 825, 835, 114 S. Ct. 1970, 128 L. Ed.
2d 811 (1994) (“[D]eliberate indifference entails something
more than mere negligence . . . .”).
The Seventh Circuit decision relied upon by the
Estate is readily distinguishable. See Woodward v. Corr.
Med. Servs. of Ill., Inc., 368 F.3d 917 (7th Cir. 2004). In
Woodward, the court upheld a jury verdict that a defendant
was deliberately indifferent to an inmate’s risk of suicide.

8a
Appendix A
Id. at 919. But there, the defendant failed to train staff,
condoned violating policies meant to help suicidal inmates,
and ignored the inmate’s explicit warnings about his
mental health and thoughts of suicide. Id. at 927-29.
We also note that the Estate cannot show state of
mind, an essential element of a municipal-liability claim.
See Schneider, 717 F.3d at 770-71. In the context of an
official-capacity claim, a plaintiff must show:
the municipality has actual or constructive
notice that its action or failure to act is
substantially certain to result in a constitutional
violation, and it consciously or deliberately
chooses to disregard the risk of harm. In
most instances, notice can be established by
proving the existence of a pattern of tortious
conduct. In a narrow range of circumstances,
however, deliberate indifference may be found
absent a pattern of unconstitutional behavior
if a violation of federal rights is a highly
predictable or plainly obvious consequence of
a municipality’s action or inaction[.]
Id. at 771 (quoting Barney v. Pulsipher, 143 F.3d 1299,
1307 (10th Cir. 1998)).
Here, the jail has had one suicide-by-hanging from
decades ago and one recent attempted suicide-bydrowning. While tragic, this is not a pattern of conduct
that would establish actual notice of a substantially high
risk of suicide. Nor is this one of those rare circumstances

9a
Appendix A
where the jail’s operating procedures were so deficient, or
the risk of the telephone cord was so obvious, that it would
“be liable under § 1983 without proof of a pre-existing
pattern of violations.” Connick v. Thompson, 563 U.S. 51,
64, 131 S. Ct. 1350, 179 L. Ed. 2d 417 (2011).
AFFIRMED.
Entered for the Court
/s/				
Paul J. Kelly, Jr.
Circuit Judge

10a
APPENDIX B — Appendix
OPINIONBOF THE UNITED
STATES DISTRICT COURT FOR THE DISTRICT
OF COLORADO, FILED JANUARY 27, 2020
IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF COLORADO
Judge Robert E. Blackburn
Civil Action No. 18-cv-00378-REB-GPG
GARY HEIDEL, INDIVIDUALLY, MICHELE
ASCHBACHER, INDIVIDUALLY, CAMILLE
ROWELL, INDIVIDUALLY, KERSTEN HEIDEL,
INDIVIDUALLY, AND MICHAEL ROWELL,
INDIVIDUALLY AND AS THE PERSONAL
REPRESENTATIVE OF THE ESTATE OF
CATHERINE ROWELL,
Plaintiffs,
v.
SHERIFF ANTHONY MAZZOLA, IN HIS
INDIVIDUAL AND OFFICIAL CAPACITY;
SERGEANT JEREMY MUXLOW, IN HIS
INDIVIDUAL CAPACITY; DEPUTY KIM COOK, IN
HIS INDIVIDUAL CAPACITY; DEPUTY CLINTON
KILDUFF, IN HIS INDIVIDUAL CAPACITY;
DEPUTY JOHNNY MURRAY, IN HIS
INDIVIDUAL CAPACITY,
Defendant(s).

11a
Appendix B
ORDER CONCERNING MOTION
FOR SUMMARY JUDGMENT
Blackburn, J.
The matter before me is the Defendants’ Motion for
Summary Judgment [#91]1 filed September 6, 2019. The
plaintiffs filed a response [#101], and the defendants filed a
reply [#114]. I grant the motion in part and deny it in part.
I. JURISDICTION
I have jurisdiction over this matter under 28 U.S.C.
§ 1331 (federal question) and § 1367 (supplemental
jurisdiction).
II. STANDARD OF REVIEW
The purpose of a summary judgment motion is to
assess whether trial is necessary. White v. York Int’l Corp.,
45 F.3d 357, 360 (10th Cir. 1995). Summary judgment is
proper when there is no genuine dispute as to any material
fact and the movant is entitled to judgment as a matter
of law. Fed. R. Civ. P. 56(a); Celotex Corp. v. Catrett, 477
U.S. 317, 322 (1986). A dispute is “genuine” if the issue
could be resolved in favor of either party. Matsushita
Electric Industrial Co., Ltd. v. Zenith Radio Corp., 475
U.S. 574, 586 (1986); Farthing v. City of Shawnee, 39 F.3d
1. “[#91]” is an example of the convention I use to identify
the docket number assigned to a specific paper by the court’s case
management and electronic case filing system (CM/ECF). I use this
convention throughout this order.

12a
Appendix B
1131, 1135 (10th Cir. 1994). A fact is “material” if it might
reasonably affect the outcome of the case. Anderson v.
Liberty Lobby, Inc., 477 U.S. 242, 248 (1986); Farthing,
39 F.3d at 1134. Summary judgment may be granted if
the court concludes that no “rational trier of fact” could
find for the nonmoving party based on the showing made
in the motion and response. Matsushita Elec. Indus. Co.
v. Zenith Radio Corp., 475 U.S. 574, 587 (1986).
A party who does not have the burden of proof at trial
must show the absence of a genuine fact issue. Concrete
Works, Inc. v. City & County of Denver, 36 F.3d 1513,
1517 (10th Cir. 1994), cert. denied, 115 S.Ct. 1315 (1995).
Once the motion has been properly supported, the burden
shifts to the nonmovant to show, by tendering depositions,
affidavits, and other competent evidence, that summary
judgment is not proper. Id. at 1518. All the evidence must
be viewed in the light most favorable to the party opposing
the motion. Simms v. Oklahoma ex rel. Department of
Mental Health and Substance Abuse Services, 165 F.3d
1321, 1326 (10th Cir.), cert. denied, 120 S.Ct. 53 (1999).
III. FACTS
Unless noted otherwise, the facts outlined below are
undisputed. On Friday, February 12, 2016, Catherine
Rowell was arrested in Rangely, Colorado. She was
arrested for the state crime of violation of a protective
order. Allegedly, Ms. Rowell had contact with her
purported common-law husband, Gary Heidel, a protectee
under the protective order.

13a
Appendix B
Following her arrest, Ms. Rowell was booked into
the Rio Blanco County Detention Center (Jail), located
in Meeker, Colorado. Three days later, on Monday,
February 15, 2016, jail staff checked on Ms. Rowell. They
discovered Ms. Rowell seated in what appeared to be an
unusual position. Jail staff entered the cell and discovered
a telephone cord wrapped around Ms. Rowell’s neck. Jail
staff immediately undertook life saving measures and
called for an ambulance. They were unable to revive Ms.
Rowell. The in-jail suicide of Ms. Rowell forms the basis
for the claims of the plaintiffs.
The Booking Report for Ms. Rowell, dated February
12, 2016, shows Ms. Rowell was held on a charge of
violation of a protection order. Motion [#91], Exhibit A
[#92–1], CM/ECF pp.10-12 (Booking Report, February
12, 2016). On that basis, she was charged with a class I
misdemeanor under §18-6-803.5, C.R.S. Id., CM/ECF p.
11. The February 12, 2016, Booking Report does not show
any other basis for holding Ms. Rowell in custody.
Two days prior to her arrest on February 12, 2016,
Ms. Rowell had been released from the Jail. That release
took place on February 10, 2016, after Ms. Rowell had
spent a week in the Jail. In 2015, Ms. Rowell had been
confined in the jail in February and August. Some of the
defendants were familiar with Ms. Rowell from these
previous confinements.
The Jail had four small pods, one of which was
dedicated to female inmates only. The female pod had two
cells for sleeping and an adjacent day room. The two cells

14a
Appendix B
and the day room were interconnected but could be locked
and isolated from one another. The day room had a sink,
a counter with bench, a television mounted on the wall, a
shower, and a telephone with a 33 inch long armored cord.
Between the evening hours of February 12, 2016,
and Monday, February 15, 2016, Ms. Rowell was the only
female inmate housed at the Jail. As a result, she was
allowed to move freely in the pod between her cell and
the day room.
Jail staff delivered meals to Ms. Rowell and offered
her outside recreation time. Jail staff routinely checked
on Ms. Rowell, although the frequency of those checks is
disputed.
Between February 12 and February 15, 2016, Ms.
Rowell spent much of her time sleeping. She often refused
food, but the frequency of her refusal of food is disputed.
When offered the opportunity for outdoor exercise, she
always refused. At the time, daytime temperatures were in
the 30s, and other Jail inmates refused outdoor exercise as
well. Reply [#114], Exhibit JJ [#115-11] (Second Murray
Deposition), 181:21-25; Response [#101], Exhibit 17, p. 17.
Deputy Kim Cook booked Ms. Rowell into the Jail
on February 12, 2016. Deputy Cook did not return to
work until February 16, after the death of Ms. Rowell.
On February 17, 2016, agent Rosa Perez of the Colorado
Bureau of Investigation (CBI) interviewed Deputy Cook.
Motion [#91], Exhibit K [#92-11] (Cook CBI Interview).
During the CBI interview, Deputy Cook was asked if Ms.

15a
Appendix B
Rowell was cooperative when Deputy Cook booked her
into the jail. Id., p.1. Deputy Cook said Ms. Rowell was
cooperative but also was very angry with Tina Gonzales, a
woman who was arrested with Ms. Rowell. Id. According
to Deputy Cook, Ms. Rowell was answering his questions
appropriately. Id. Deputy Cook observed nothing to
indicate that Ms. Rowell was impaired by either alcohol
or drugs. Id.
Deputy Cook said there was a list of specific medical
questions asked of each inmate entering the jail. Id. He
said if an inmate answered yes to any of the medical
questions, it would show up on their booking form. Id.,
pp. 1-2. Deputy Cook said he believed Ms. Rowell told
him she did not have any medical issues. Id., p. 2. Deputy
Cook said he expected that because Ms. Rowell did not
have any medical issues the previous week when she was
housed at the Jail. Id.
The CBI investigator took a picture of the computer
screen in the Jail showing the booking questions for Ms.
Rowell on the form used by Deputy Cook on February
12, 2016. Response [#101], Exhibit 10 [#101-12] (Booking
Questions Form). The Booking Questions Form contains
a list of visual observations by the booking officer and
a list of questions concerning medical information.
There is a single checkbox next to each observation and
question. According to Deputy Cook, the checkbox would
be marked only if the inmate answered yes to any of the
medical questions or the officer made any of the listed
visual observations. On the Booking Questions Form
used for Ms. Rowell on February 12, 2016, none of the

16a
Appendix B
check boxes are marked. Id. Under the list captioned
visual observations, there is a box for “Visual Observation
Notes.” Id. On the form used for Ms. Rowell, this box
says “NO COMMENTS.” Id. Under the list captioned
medical information, there is a box for “Medical Detail.”
On the form used for Ms. Rowell, this box says “NO
MED ISSUES.” Id. The list of questions in the medical
information column includes a question which asks “are
you or have you been suicidal.” Id. On the form used for
Ms. Rowell, the box next to this question is not checked.
In his deposition, Deputy Cook said he does not have
an independent recollection of this particular booking,
but the documents reflect that he asked Ms. Rowell if
she was suicidal. Motion [#91], Exhibit G [#92-7] (Cook
Deposition), 100:12-102:2. The plaintiffs contend that
the Booking Questions Form, containing almost no
information concerning Ms. Rowell, tends to show that
Deputy Cook did not ask any of these questions of Ms.
Rowell when she was booked. Booking Questions Forms
concerning earlier incarcerations of Ms. Rowell, in early
2015 and on February 2, 2016, both noted that Ms. Rowell
had high blood pressure for which she was not taking any
medication. Response [#101], pp. 6-7 and exhibits cited
there.
Sgt. Jeremy Muxlow worked two evening shifts at the
jail, Saturday, February 13, 2016, and Sunday, February
14, 2016. On both evenings, Sgt. Muxlow worked from 7:00
p.m. to 7: 00 a.m. Previously, when working as a patrol
officer rather than a jail officer, Sgt. Muxlow had prior
encounters with Ms. Rowell. Her reserved demeanor

17a
Appendix B
during the evening shifts worked by Sgt. Muxlow on
February 13 and February 14 was consistent with his prior
encounters with Ms. Rowell in a non–jail setting. In his
deposition, Sgt. Muxlow testified that, working in a jail
setting, few inmates are happy to be there. Reply [#114],
Exhibit DD (Muxlow Deposition), 250:22-250:25. In his
logs for his shifts on February 13 and February 14, Sgt.
Muxlow noted that Ms. Rowell sleeps a lot. Although he
noted this fact in his log, Sgt. Muxlow said he did not find
this to be unusual. Muxlow Deposition, 247:11-15. Asked
if Ms. Rowell appeared to be apathetic during the evening
shifts of February 13 and February 14, Sgt. Muxlow
said her apathy was “nothing out of the norm.” Muxlow
Deposition [#115-5], 248:3-248:5. Sgt. Muxlow knew Ms.
Rowell was incarcerated for a protection order violation
and that the protection order concerned her common law
husband, Gary Heidel.
Sgt. Muxlow received some suicide prevention
training from his prior employment in Gunnison, Colorado.
Muxlow Deposition [#115-5], 118:23-119:7. Sgt. Muxlow
testified in his deposition that he received “(a)t least a few
hours” of training in suicide prevention when he worked in
Gunnison. Id., 120:18-120:22. The evidence in the record
does not show anything about the specific topics covered
in this training, other than the general topic of suicide
prevention.
Deputy Johnny Murray worked the day shifts on
February 12, 13, 14, and 15, 2016. Motion [#91], Exhibit
B [#92-2] (Murray Deposition), 46:13-49:9; Exhibit J
[#92-10]. On February 15, Deputy Murray checked on Ms.

18a
Appendix B
Rowell at 8:00 a.m., 10:30 a.m. when brunch was served,
11;00 a.m. when he collected her food tray, and 1:00 p.m.
Motion [#91], Exhibit N [#92-15] (Kilduff CBI Interview),
p. 2; Exhibit L-1 [#92-13]; Exhibit P [#92-17] (Murray
2-15-16 Written Statement). On Saturday, Sunday, and
Monday (February 13, 14, and15), Deputy Murray did
not interact with Ms. Rowell a lot. Deputy Murray had
noticed Ms. Rowell had not eaten a lot and asked her
why she wasn’t eating, to which she responded that she
was “just not hungry.” Ms. Rowell slept most of the time
while he was working. Murray only recalls having routine
conversations with Ms. Rowell. She spent most of her
time in bed as she had done during prior incarcerations,
and as is typical for a many inmates. Murray Deposition
[#92-2], 210:3-13.
Deputy Clinton Kilduff worked the day shifts (7:00
a.m. to 7:00 p.m.) on February 13, 14, and 15, 2016. Motion
[#91], Exhibit B [#92-2] (Murray Deposition), 46:13-49:9;
Exhibit J [#92-10]. Each day, Deputy Kilduff offered Ms.
Rowell one hour of outside recreation time, and Ms. Rowell
declined each day. Outside recreation time was usually
offered after lunch. Motion [#91], Exhibit N [#92-15]
(Kilduff CBI Interview), p. 1. In addition to speaking with
Ms. Rowell on February 15 about recreation time, Deputy
Kilduff had spoken earlier with Ms. Rowell about brunch
being served that day instead of breakfast because it was
a holiday (President’s Day). Id. Ms. Rowell ate most of the
egg casserole, all of her cottage cheese, and two pieces of
sweet bread, but did not eat her pears or potatoes. Id .,
p.4. On February 15 at approximately 12:07 p.m., Deputy
Kilduff found Ms. Rowell asleep, and he woke her up to ask

19a
Appendix B
if she wanted her recreation time, to which she responded
“No, thank you,” and then rolled back over to sleep. Ms.
Rowell was on her bunk during this exchange, not in the
dayroom. Id., p. 2.
Sheriff Anthony Mazzola began working as the elected
Sheriff of Rio Blanco County in January 2015. Motion
[#91], Exhibit D [#92-4] (Mazzola Deposition), 79:4-80:23.
Sheriff Mazzola did not work February 12-15, 2016. Motion
[#91], Exhibit B [#92-2], 46:13-49:9; Exhibit J [#92-10],
line 301. When Sheriff Mazzola became Sheriff, he began
working to update policy and procedures for the Jail. Id.,
Mazzola Deposition [#92-4], 183:6-184:2. As of February
2016, Sheriff Mazzola was aware that Sgt. Muxlow had
received some suicide prevention training in the basic
academy. Id., 234:7-234:20. In his deposition, Sheriff
Mazzola testified that Deputy Cook, Deputy Murray,
and Deputy Kilduff had on-the-job training concerning
suicide. Id., 234:21-235:8. Other than on-the-job training,
Sheriff Mazzola did not know of any other formal training
in suicide prevention received by Deputy Cook, Deputy
Murray, and/or Deputy Kilduff between January 2015,
when Sheriff Mazzola became Sheriff, and February 15,
2016. Id., 235:9-236:10. The record contains no evidence
that Sheriff Mazzola was aware that Ms. Rowell had been
incarcerated previously in the Rio Blanco County jail
between February 12 and February 15, 2016.
The plaintiffs contended that not all of the jail checks
indicated in the jail logs and other evidence actually were
performed. Response [#101], pp. 9-13. The plaintiffs claim
the Jail had a custom of allowing officers to wait much
more than one hour between jail checks. In addition, the

20a
Appendix B
plaintiffs contend that video evidence shows that not all
of the jail checks shown in the jail logs were performed.
On February 15, 2016, at approximately 12:07 p.m.,
Deputy Kilduff found Ms. Rowell asleep, and he woke her
up to ask if she wanted her recreation time. Ms. Rowell
responded “No, thank you,” and rolled back over to sleep.
Motion [#91], Exhibit N [#92-15] (Kilduff CBI Interview),
P. 2. Deputy Murray says he checked on Ms. Rowell at
11:03 a.m. and 1:00 p.m. Motion [#91], Exhibit P [#92-17]
(Murray Written Statement), p. 1. The plaintiffs contend
the evidence shows that the 1:00 p.m check by deputy
Murray did not actually occur. At 1:55 p.m., Jail staff
discovered Ms. Rowell in the day room with the armored
telephone cord wrapped around her neck. They were
unable to revive her.
The plaintiffs are Gary Heidel, the common law
husband of Ms. Rowell, Michael Rowell, a son of Ms.
Rowell, Michelle Aschbacher, a daughter of Ms. Rowell,
Camille Rowell, a daughter of Ms. Rowell, and Kirsten
Heidel, a daughter of Ms. Rowell. I will refer to these
plaintiffs as the individual plaintiffs. In addition, the
Estate of Catherine Rowell also is a plaintiff, with Michael
Rowell acting as the Personal Representative of the estate.
The plaintiffs assert the following claims:
1. Wrongful death based on negligence (individual plaintiffs against all defendants).
2. Wrongful death based on premises
liability to invitee – §13-21-115, C.R.S. (individual plaintiffs against all defendants).

21a
Appendix B
3. Wrongful death based on premises
liability to licensee – §13-21-115, C.R.S. (individual plaintiffs against all defendants).
4. 42 U.S.C. § 1983 Fourteenth Amendment
– deliberate indifference to a substantial risk
of suicide (Estate of Catherine Rowell against
Sgt. Jeremy Muxlow in his individual capacity).
5. 42 U.S.C. § 1983 Fourteenth Amendment
– entity liability (estate of Catherine Rowell
against Sheriff Anthony Mazzola in his official
capacity).
Proposed Final Pretrial Order [#120], CM/ECF p. 6.
IV. § 1983 CLAIMS
The estate of Ms. Rowell asserts a claim under § 1983
against Sgt. Jeremy Muxlow in his individual capacity.
Sgt. Muxlow was on duty in the Jail between 7 p.m. and
7 a.m. on the two nights prior to the death of Ms. Rowell.
In addition, the estate of Ms. Rowell asserts a claim under
§ 1983 against Sheriff Anthony Mazzola in his official
capacity. The estate of Ms. Rowell alleges that Sheriff
Mazzola failed to train and supervise his employees in the
jail concerning suicide screening, suicide prevention, and
the treatment of those who are suicidal. Second Amended
Complaint [#54], ¶ 132. The estate cites other alleged
failures of the Sheriff in support of this claim. These
failures, the estate alleges, are the moving and proximate
cause of the death of Ms. Rowell. Id., ¶ 134.

22a
Appendix B
Claims based on a jail suicide are treated as claims
based on the failure of jail officials to provide medical
care for those in their custody. Cox v. Glanz, 800 F.3d
1231, 1248 (10th Cir. 2015). Under the Due Process Clause
of the Fourteenth Amendment, pretrial detainees are
entitled to the same degree of protection against denial of
medical care as that afforded to convicted inmates under
the Eighth Amendment. Frohmader v. Wayne, 958 F.2d
1024, 1028 (10th Cir.1992). The claim of the estate based
on allegedly inadequate medical attention must be judged
against the “deliberate indifference to serious medical
needs” test of Estelle v. Gamble, 429 U.S. 97 (1976).
Martin v. Board of County Comm’rs, 909 F.2d 402, 406
(10th Cir.1990).
The estate asserts that Sgt. Muxlow and Sheriff
Mazzola were deliberately indifferent to the risk of suicide
in the Jail and the risk of suicide presented by Ms. Rowell.
“Deliberate indifference” has both an objective and a
subjective component. “The objective component of the
test is met if the harm suffered is sufficiently serious to
implicate the Cruel and Unusual Punishment Clause.”
Kikumura v. Osagie, 461 F.3d 1269, 1291 (10th Cir. 2006)
(quotations and citations omitted). The defendants concede
that the risk of suicide involves a serious medical need
for purposes of the objective prong of this test. Motion
for Summary Judgment [#91], p. 11. “The subjective
component is met if a prison official knows of and
disregards an excessive risk to inmate health or safety.”
Kikumura, 461 F.3d at 1291. It is not enough for an official
merely to be aware of facts from which an inference could
be drawn that a substantial risk of serious harm exists.

23a
Appendix B
Rather, the official must also draw the inference. Matta v.
Saiz, 427 F.3d 745, 751 (10th Cir. 2005). In the context of
an individual capacity § 1983 claim based on a jail suicide,
the defendant must have had “actual knowledge . . . of
an individual inmate’s substantial risk of suicide.” Cox
v. Glanz, 800 F.3d 1231, 1249 (10th Cir. 2015). A plaintiff
can succeed on such a claim only by presenting evidence
suggesting that the jail staff had knowledge of the specific
and substantial risk that the deceased inmate would
commit suicide. Id. at 1249-1250.
A. QUALIFIED IMMUNITY - SGT. MUXLOW
The only individual capacity § 1983 claim asserted by
the estate is its claim against Sgt. Muxlow. The estate has
withdrawn its individual capacity § 1983 claims against
the other defendants. Response [#101], p. 28. In the motion
for summary judgment [#91], Sgt. Muxlow contends he
is entitled to qualified immunity as to the § 1983 claim
brought against him.
A motion for summary judgment asserting qualified
immunity must be reviewed differently from other
summary judgment motions. See Saucier v. Katz, 533 U.S.
194, 201 (2001), overruled in part, Pearson v. Callahan,
555 U.S. 223, 236 (2009); Holland v. Harrington, 268 F.3d
1179, 1185 (10th Cir. 2001), cert. denied, 535 U.S. 1056
(2002). After a defendant asserts qualified immunity, the
burden of persuasion shifts to the plaintiff. Scull v. New
Mexico, 236 F.3d 588, 595 (10th Cir. 2000). When faced
with a motion for summary judgment asserting qualified
immunity, a plaintiff bears the onus to demonstrate after

24a
Appendix B
a review of the evidence in the light most favorable to
the plaintiff “(1) that the [defendant] official violated a
statutory or constitutional right, 2 and (2) that the right was
‘clearly established’ at the time of the challenged conduct.”
Ashcroft v. al-Kidd, 563 U.S. 731, 735 (2011); Felders ex
rel. Smedley v. Malcom, 755 F.3d 870, 877 (10th Cir. 2014).
The “plaintiff must articulate the clearly established
constitutional right and the defendant’s conduct which
violated the right with specificity.” Mick v. Brewer, 76 F.3d
1127, 1134 (10th Cir. 1996 (quoting Romero v. Fay, 45 F.3d
1472, 1475 (10th Cir.1995)). A court may decide “which of
the two prongs of the qualified immunity analysis should
be addressed first in light of the circumstances in the
particular case.” Pearson v. Callahan, 555 U.S. 223, 236
(2009); Quinn v. Young, 780 F.3d 998, 1004 (10th Cir. 2015).
As with any motion for summary judgment, the court must
view the facts and draw reasonable inferences in the light
most favorable to the plaintiff as the party opposing the
motion for summary judgment. Scott v. Harris, 550 U.S.
372, 378 (2007).
For a constitutional right to be clearly established,
the contours of the right must be sufficiently clear that
a reasonable official would understand that what he is
doing violates that constitutional right. Quinn, 78 F.3d
at 1004 - 1005. “A plaintiff may satisfy this standard by
identifying an on-point Supreme Court or published Tenth
Circuit decision; alternatively, the clearly established
2. In the context of a motion for summary judgment, the court
must determine if the facts shown by the plaintiff through evidence
in the record make out a violation of a constitutional right. Pearson
v. Callahan, 555 U.S. 223, 232 (2009).

25a
Appendix B
weight of authority from other courts must have found the
law to be as the plaintiff maintains.” Id. at 1005 (citation
and internal quotation omitted); see also Ashcroft v. alKidd, 563 U.S. 731, 741 (2011). Absent binding Supreme
Court or Tenth Circuit authority, the plaintiff must show
a “robust consensus of cases of persuasive authority” in
the Courts of Appeals. Taylor v. Barkes,
U.S.
,
, 135 S.Ct. 2042, 2044 (2015) (quoting City and Cnty.
of San Francisco v. Sheehan,
U.S.
,
, 135 S.Ct.
1765, 1778 (2015)). See also al-Kidd, 563 U.S. at 741. The
existence of one out-of-circuit decision and several district
court decisions holding that the right at issue exists is not
sufficient to put every reasonable officer on notice that the
law is clearly established. Woodward v. City of Worland,
977 F.2d 1392, 1387 (10th Cir. 1992). 3
The plaintiff must demonstrate also a substantial
correspondence between the conduct in question and
prior law establishing that the defendant’s actions clearly
were prohibited. Hilliard v. City & Ctny. of Denver,
930 F.2d 1516, 1518 (10th Cir. 1991) (citing Hannula v.
City of Lakewood, 907 F.2d 129, 131 (10th Cir. 1990)).
However, the plaintiff need not establish a “precise factual
3. See also Davis v. Holly, 835 F.2d 1175, 1182 (6th Cir. 1987)
(“A single idiosyncratic opinion from the court of appeals for another
circuit was hardly sufficient to put the defendants on notice of where
this circuit or the Supreme Court might come out on the issue in
question.”); Higginbotham v. City of New York,
F.Supp.3d
,
, No. 14–cv–8549 (PKC)(RLE), 2015 WL 2212242 (S.D.N.Y. May
12, 2015) (holding that three circuit courts and numerous district
courts concluding that the right at issue existed were sufficient to
demonstrate a “robust consensus of persuasive authority”).

26a
Appendix B
correlation between the then-existing law and the case
at hand . . . .” Patrick v. Miller, 953 F.2d 1240, 1249 (10th
Cir.1992) (internal quotations omitted). Government
officials can still be on notice that their conduct violates
established law even in novel factual circumstances. Hope
v. Pelzer, 536 U.S. 730, 741 (2002); Quinn, 78 F.3d at 1005.
For example, the existence of unreasonable seizure is a
fact-specific inquiry and, therefore, “there will almost
never be a previously published opinion involving exactly
the same circumstances.” Casey v. City of Fed. Heights,
509 F.3d 1278, 1284 (10th Cir. 2007). “The more obviously
egregious the conduct in light of prevailing constitutional
principles, the less specificity is required from prior case
law to clearly establish the violation.” Pierce v. Gilchrist,
359 F.3d 1279, 1298 (10th Cir. 2004). Still, the Supreme
Court has “repeatedly told courts ... not to define clearly
established law at a high level of generality.” al-Kidd, 563
U.S. at 742 (citations omitted); see Tolan v. Cotton, 572
U.S. 650, 657 (2014) (“[W]e have instructed that courts
should define the clearly established right at issue on
the basis of the specific context of the case.” (internal
quotation marks omitted)).
In short, although the court must review the evidence
in the light most favorable to the plaintiffs, an assertion
of qualified immunity may be overcome only when the
record demonstrates clearly that the plaintiffs have
satisfied this heavy two-part burden. If the plaintiffs
satisfy this enhanced burden, then the burden shifts to
the defendants. Unless the defendants demonstrate that
there is no disputed issue of material fact relevant to the
immunity analysis, a motion for summary judgment based

27a
Appendix B
on qualified immunity must be denied. Salmon v. Schwarz,
948 F.2d 1131, 1136 (10th Cir.1991).
The estate cites Cox v. Glanz, 800 F.3d 1231 (10th
Cir. 2015) as stating the clearly established law relevant
to the § 1983 claim against Sgt. Muxlow. Cox is the only
case cited by the estate to show the clearly established
law relevant to their § 1983 claim against Sgt. Muxlow. As
noted above, the Cox court held that a plaintiff asserting
a claim under § 1983 based on a jail suicide must present
evidence suggesting that the jail staff had knowledge
of the specific and substantial risk that the deceased
inmate would commit suicide. Id. at 1249-1250. Viewing
the evidence in the record in the light most favorable
to the estate, I find that no reasonable fact finder could
conclude that Sgt. Muxlow had knowledge prior to the
suicide of Ms. Rowell which led him to conclude that Ms.
Rowell presented a substantial risk of suicide. Further,
no reasonable fact finder could conclude that Sgt. Muxlow
deliberately disregarded such a risk.
The estate contends Sgt. Muxlow knew Ms. Rowell
was going through difficulty in her romantic relationship,
slept most of the time, refused recreation, lost her appetite,
lost interest in communicating, was socially isolated, and
was withdrawn. Response [#101], p. 28. According to the
estate, “(f)rom this obvious display of suicide risk factors,
combined with some training on suicide, a jury could infer
that [Sgt.] Muxlow actually knew that [Ms.] Rowell was at
a substantial risk of suicide and that he failed to abate that
risk.” Id. The estate of Ms. Rowell cites no evidence which
shows Sgt. Muxlow knew or concluded that Ms. Rowell

28a
Appendix B
presented a substantial risk of suicide. So, the estate relies
on the factors cited above to support its contention that
it was obvious to Sgt. Muxlow that Ms. Rowell presented
a substantial risk of suicide. Knowledge of a suicide risk
can be inferred when the suicide risk factors are both
substantial and pervasive. See Estate of Hocker by Hocker
v. Walsh, 22 F.3d 995, 1000 (10th Cir. 1994).
To some extent, the factors cited by the estate are
consistent with a risk of suicide. However, those factors
are also consistent with other conditions. The evidence
in the record shows that, from the perspective of Sgt.
Muxlow, the quiet demeanor of Ms. Rowell was the norm
for Ms. Rowell – in jail and out of jail. The evidence
indicates also that it was not unusual for some inmates in
the jail to sleep frequently, as Ms. Rowell did. Obviously,
this would be particularly true during the two night shifts
worked by Sgt. Muxlow between 7:00 p.m. and 7:00 a.m.
When Ms. Rowell was in the Jail, outdoor temperatures
were below freezing, and Ms. Rowell was not the only
inmate to refuse outdoor recreation. The evidence shows
that Ms. Rowell ate some, but not all, of the food which
she was offered. Considered individually and collectively,
these factors do not demonstrate suicide risk factors that
are so substantial and pervasive that a reasonable fact
finder could infer that Sgt. Muxlow knew Ms. Rowell
presented a substantial risk of suicide.
This conclusion is consistent with Cox v. Glanz, 800
F.3d 1231 (10th Cir. 2015). In Cox, the inmate in question
indicated that he felt paranoid, heard voices, or saw things
that others do not see. Id., 800 F.3d at 1237. He indicated

29a
Appendix B
also that he had felt nervous or depressed in recent weeks
and was taking medication for an emotional or mental
health problem. Id. Jail employees were aware that he had
been treated for paranoid schizophrenia. Id. The inmate
denied that he was currently thinking of committing
suicide. Id. The Cox court concluded that the “observable
symptoms” of the inmate “were susceptible to a number of
interpretations; suicide may well have been one possibility,
but the facts known to those with whom he interacted did
not establish that it was a substantial one.” Id., 1253.
The Cox court cited two cases from other circuits
in which those courts concluded that when the inmate
denied suicidal ideation during booking, the behavior of
the inmate did not show that jail employees had actual
knowledge that the inmate posed a serious risk of suicide.
In Hott v. Hennepin County, Minnesota, 260 F.3d 901,
906 (8th Cir. 2001), the inmate denied suicidal ideation
but was placing his hands around his neck, possibly as an
allusion to hanging himself. Id. When being booked into
the jail, the inmate indicated that he was suffering neck
and back pain from her recent car accident. There was
no evidence that jail personnel interpreted his gestures
as a threat of suicide. A request for a late-night phone
call was reasonably explained as a desire of the inmate
to check on the health of his infant son. The inmate also
was visibly glum. Even these behaviors were not sufficient
to demonstrate actual knowledge of a risk of suicide by
jail employees.
Similarly, in Estate of Novack ex rel. Turbin v. County
of Wood, 226 F.3d 525 (7th Cir. 2000), the inmate had been
prescribed medication for obvious psychiatric problems

30a
Appendix B
and exhibited strange behavior, such as pounding on the
walls of his cell and giggling. Id. at 530. The Novack court
concluded “strange behavior alone, without indications
that [the] behavior has a substantial likelihood of taking
a suicidal turn, is not sufficient to impute subjective
knowledge of a high suicide risk to jail personnel.” Id.
Given the holding on this point in Cox and the cases on
which the Cox court relied, I conclude that no reasonable
fact finder could conclude that Sgt. Muxlow had subjective
knowledge of a specific and substantial risk that Ms.
Rowell would attempt or commit suicide. The behavior
exhibited by Ms. Rowell and known to Sgt. Muxlow did
not present a substantial and pervasive set of suicide
risk factors such that a reasonable fact finder properly
could infer that Sgt. Muxlow was aware of a specific and
substantial risk that Ms. Rowell would commit suicide.
Absent awareness of such risk, it cannot be said that Sgt.
Muxlow deliberately disregarded the risk. This is true
even when the facts in the record are viewed in the light
most favorable to the plaintiff on this claim. Thus, the
evidence in the record, viewed in the light most favorable
to the plaintiff, does not support the claim of the plaintiff
that Sgt. Muxlow violated the rights of Ms. Rowell under
the Due Process Clause of the Fourteenth Amendment.
Viewing the facts in the record in the light most
favorable to the estate of Ms. Rowell, I also cannot
conclude that the right asserted by Ms. Rowell was clearly
established at the time of her death. The decision of the
Tenth Circuit in Cox v. Glanz, 800 F.3d 1231 (10th Cir.
2015) shows that the right asserted by Ms. Rowell was

31a
Appendix B
not clearly established at the time of her death. Cox is the
only authority on which the estate of Ms. Rowell relies to
show the clearly established law relevant to the individual
capacity § 1983 claim against Sgt. Muxlow.
It is important to note one other point on the issue
of clearly established law. The estate contends that, with
regard to a pretrial detainee, a plaintiff jail inmate need
not show deliberate indifference to a serious medical need
on the part of defendant jail employees. Rather, the estate
contends such a plaintiff need show only that the actions
of defendant jail employees were objectively unreasonable.
In support of this position, the estate cites the opinion of
the Supreme Court of the United States in Kingsley v.
Hendrickson,
U.S.
, 135 S. CT. 2466, 2473 (2015).
In Kingsley, the Court addressed an excessive force
claim by a pretrial detainee. The Kingsley Court wrote:
In deciding whether the force deliberately used
is, constitutionally speaking, “excessive,” should
courts use an objective standard only, or instead
a subjective standard that takes into account
a defendant’s state of mind? It is with respect
to this question that we hold that courts must
use an objective standard. In short, we agree
with the dissenting appeals court judge, the
Seventh Circuit’s jury instruction committee,
and Kingsley, that a pretrial detainee must
show only that the force purposely or knowingly
used against him was objectively unreasonable.

32a
Appendix B
Kingsley,
U.S. at
, 135 S.Ct. at 2472–73. The estate
contends that the Second, Seventh, and Ninth Circuits
have held that Kingsley overrules their precedents. After
Kingsley, these courts have held, an objective standard
applies to all Fourteenth Amendment claims brought by
a pretrial detainee, including claims based on inadequate
medical treatment. Darnell v. Pineiro, 849 F.3d 17, 35 (2nd
Cir. 2017); Miranda v. Lake, 900 F.3d 335, 352–54 (7th
Cir. 2018); Gordon v. Orange, 888 F.3d 1118, 1124-1125
(9th Cir. 2018). On the other hand, the Eighth, Eleventh,
and Fifth Circuits have chosen to confine Kingsley to its
facts and limit the Kingsley standard to claims under the
Fourteenth Amendment for excessive-force in a pretrial
setting. Miranda, 900 F.3d at 352.
The Tenth Circuit has not addressed this issue in a
published case. In Cox v. Glanz, 800 F.3d 1231, 1248 (10th
Cir. 2015), the Tenth Circuit wrote:
“[C]laims based on a jail suicide are considered
and treated as claims based on the failure of
jail officials to provide medical care for those
in their custody.” Barrie v. Grand Cty., 119
F.3d 862, 866 (10th Cir.1997). Therefore, such
claims “must be judged against the ‘deliberate
indifference to serious medical needs’ test.”
Estate of Hocker ex rel. Hocker v. Walsh, 22
F.3d 995, 998 (10th Cir.1994) (quoting Martin
v. Bd. of Cty. Comm’rs, 909 F.2d 402, 406 (10th
Cir.1990)). As the district court noted, the
claims at issue here implicate the subjective
component of the deliberate-indifference

33a
Appendix B
rubric, under which the defendant must “both
be aware of facts from which the inference could
be drawn that a substantial risk of serious harm
exists, and ... also draw the inference.” Farmer
v. Brennan, 511 U.S. 825, 837, 114 S.Ct. 1970,
128 L.Ed.2d 811 (1994).
This is the clearly established law in the Tenth Circuit. The
plaintiff has not cited any Tenth Circuit case which alters
this law significantly. Clearly, there is much debate among
the circuits about how the Kingsley standard should be
applied. However, the Tenth Circuit has yet to weigh in.
Therefore, application of the Kingsley standard to a claim
by a pretrial detainee based on a jail suicide is not the
clearly established law of the Tenth Circuit.
In sum, Sgt. Muxlow is entitled to summary judgment
on the § 1983 individual capacity claim against him for
two reasons. First, the estate has not presented evidence
sufficient to support the conclusion that Sgt. Muxlow knew
Ms. Rowell presented a substantial risk of suicide and
deliberately disregarded that substantial risk. Second,
the estate has not shown that the alleged actions of
Sgt. Muxlow violated clearly established law. Thus, Sgt.
Muxlow is entitled to the protection of qualified immunity
and to summary judgment on this claim.

34a
Appendix B
B. OFFICIAL CAPACITY CLAIM SHERIFF MAZZOLA
The estate of Ms. Rowell asserts a claim under § 1983
against Sheriff Mazzola in his official capacity. The estate
alleges that, as Sheriff, Sheriff Mazzola had a duty to
provide constitutionally adequate medical care for inmates
in the jail. Amended Complaint [#54], ¶ 132. The estate
alleges that Sheriff Mazzola failed to train and supervise
his employees in the jail concerning screening, prevention,
and treatment of those who are suicidal. Id.
A suit against Sheriff Mazzola in his official capacity
is, in essence, a suit against Rio Blanco County.
(L)ocal governing bodies can be sued directly
under § 1983 for monetary, declaratory, or
injunctive relief where ... the action that is
alleged to be unconstitutional implements
or executes a policy statement, ordinance,
regulation, or decision officially adopted and
promulgated by that body’s officers. Moreover,
although the touchstone of the § 1983 action
against a government body is an allegation that
official policy is responsible for a deprivation
of rights protected by the Constitution, local
governments, like every other § 1983 “person,”
by the very terms of the statute, may be sued
for constitutional deprivations visited pursuant
to governmental “custom” even though such
a custom has not received formal approval
through the body’s official decision making
channels.

35a
Appendix B
Monell v. Dept. of Social Services of the City of New York,
436 U.S. 658, 690-91 (1978). Official municipal or county
policy includes the decisions of a government’s lawmakers,
the acts of its policymaking officials, and practices so
persistent and widespread as to practically have the force
of law. These are the actions for which the municipality
is actually responsible. Connick v. Thompson, 131 S.Ct.
1350, 1359 (2011). The county may be liable for harm
caused to Ms. Rowell by the policies, practices, and
customs of Sheriff Mazzola, if the policies, customs, and/
or practices were a moving force behind an underlying
constitutional deprivation suffered by Ms. Rowell. See
Kentucky v. Graham, 473 U.S. 159, 166 (1985).
To establish municipal liability under § 1983, the
plaintiff must present evidence that (1) there was a
policymaker; (2) a policy or custom existed; (3) such
custom or policy was the cause in fact or moving force
behind an underlying constitutional violation; and (4) the
municipal action was taken with “deliberate indifference”
to its known or obvious consequences. See, e.g., Piotrowski
v. City of Houston, 237 F.3d 567, 578 (5th Cir. 2001)
(assembling cases); Board of County Com’rs of Bryan
County, Okl. v. Brown, 520 U.S. 397, 407 (1997) (discussing
deliberate indifference requirement). “(R)igorous
standards of culpability and causation must be applied to
ensure that the municipality is not held liable solely for
the actions of its employees.” Board of County Com’rs of
Bryan County, Okl. v. Brown, 520 U.S. 397, 405 (1997).
The deliberate indifference standard may be satisfied
“when the municipality has actual or constructive notice
that its action or failure to act is substantially certain

36a
Appendix B
to result in a constitutional violation, and it consciously
and deliberately chooses to disregard the risk of harm.”
Barney v. Pulsipher, 143 F.3d 1299, 1307 (10th Cir.1999).
Mun icipa l l iabi l ity ca n be pred icat ed on a n
unconstitutional municipal policy, custom, or practice,
Monell, 436 U.S. at 694, or on a municipality’s failure to
train adequately or adequately to supervise its employees.
City of Canton v. Harris, 489 U.S. 378, 380 (1989); Brown v.
Reardon, 770 F.2d 896, 902 (10th Cir. 1985). A municipality
may be liable under § 1983 for inadequate supervision or
training of its employees “only where the failure to train
[or supervise] amounts to deliberate indifference to the
rights of persons with whom the [employees] come in
contact.” City of Canton, 489 U.S. at 388. Such deliberate
indifference arises where “the need for more or different
training is so obvious, and the inadequacy so likely to
result in the violation of constitutional rights, that the
policymakers of the [municipality] can reasonably be said
to have been deliberately indifferent to the need.” City of
Canton, 489 U.S. at 390. Stated differently, “municipal
liability under § 1983 attaches where – and only where
– a deliberate choice to follow a course of action is made
from among various alternatives by the official or officials
responsible for establishing final policy with respect
to the subject matter in question.” Pembaur v. City of
Cincinnati, 475 U.S. 469, 483-484 (1986).
As discussed above, the estate has not presented
evidence which would permit a reasonable fact finder
to conclude that there was an underlying constitutional
v iolation by Sg t. Mu x low. Absent an underly ing

37a
Appendix B
constitutional violation, the official capacity claim against
Sheriff Mazzola also fails. “[I]n order to hold a municipality
liable for an employee’s constitutional violation, a plaintiff
must show not only that a constitutional violation occurred,
but also that some municipal policy or custom was the
moving force behind the violation.” Myers v. Oklahoma
County Bd. of County Comm’rs, 151 F.3d 1313, 1320 (10th
Cir.1998).
In its response [#101], the estate contends a reasonable
jury could find an underlying constitutional violation based
on the actions of Deputy Murray and Deputy Kilduff.
Response [#101], pp. 25-26. The estate contends that the
failure of Deputy Murray and Deputy Kilduff to perform
a jail check for nearly two hours, between 12:05 p.m. and
1:55 p.m. on February 15, 2016, posed a substantial risk
that Ms. Rowell “would come to harm and not receive swift
medical treatment.” Id., p. 25. The estate cites no law to
show that, under the circumstances present in the Jail, the
claimed failure to perform a jail check between 12:05 p.m.
and 1:55 p.m. constitutes a constitutional violation. The
estate cites also the specific facts known about Ms. Rowell
which the estate noted concerning the alleged deliberate
indifference of Sgt. Muxlow. As with Sgt. Muxlow,
knowledge of these facts does not demonstrate suicide
risk factors that are so substantial and pervasive that a
reasonable fact finder properly could infer that Deputy
Murray and Deputy Kilduff knew Ms. Rowell presented
a substantial risk of suicide. On this issue, knowledge of a
substantial risk of suicide is required to demonstrate an
underlying constitutional violation by these two deputies.

38a
Appendix B
Finally, the estate contends a reasonable fact finder
could infer that Ms. Rowell was “more likely to harm
[herself] because of the long armored [telephone] cable to
which [she] had access.” Response [#101], p. 26. Without
citation to the evidentiary record, the state contends
Deputy Cook admitted he knew of the danger of suicide
presented by the armored telephone cable. Id. The estate
contends the danger presented by the cable was so obvious
that knowledge of the risk of suicide properly can be
inferred for all jail officers. Id. Viewing the facts in the
light most favorable to the estate, these facts may (or may
not) demonstrate negligence or even gross negligence.
However, the facts in the record of this case fall well short
of demonstrating that any defendant was aware of facts
from which the inference can reasonably be drawn that
the armored cable presented a substantial risk of suicide
and that any defendant actually drew the inference with
regard to Ms. Rowell. On this record, there is no basis
to conclude that the estate has shown an underlying
constitutional violation by Deputy Murray, Deputy Kilduff,
Deputy Cook, or Sgt. Muxlow.
Even if I assume, arguendo, that there was an
underlying constitutional violation, the evidence in the
record is not sufficient to support an official capacity claim
against Sheriff Mazzola. The estate contends Sheriff
Mazzola was deliberately indifferent to the substantial
risk of suicide created by the failure of Sheriff Mazzola
adequately to train Jail officers. The estate contends
Sheriff Mazzola failed to update the Jail manual, failed to
employ medical staff for the Jail, discouraged Jail officers
from contacting outside mental health workers, failed to

39a
Appendix B
give Jail officers formal training on identifying suicidal
inmates, and failed to give Jail staff detailed suicide
questionnaires to administer to inmates.
The estate contends Sheriff Mazzola was aware of
the substantial risk of suicide in the Jail because that
risk was well known in February 2016. Response [#101],
p. 24. The estate contends Sheriff Mazzola was aware of
a prior suicide at the jail and a prior attempted suicide.
Nowhere, however, does the estate cite evidence to support
the contentions that (1) Sheriff Mazzola was aware that
the alleged failures to train were substantially certain
to result in a constitutional violation, in the form of a
preventable suicide; and (2) he consciously and deliberately
chose to disregard that risk. Such evidence, which is totally
lacking, is necessary to establish an official capacity claim
against Sheriff Mazzola.
In addition, the estate contends Sheriff Mazzola was
deliberately indifferent to a substantial risk of suicide
when he failed to update the Jail facility by installing
video cameras and intercoms and by removing the long
armored telephone cables. The estate contends constant
video and audio surveillance, which was not present in
the Jail, “improves inmate safety and diminishes the
likelihood of a successful suicide attempt.” Response
[#101], p. 24. The estate contends also that the long
armored telephone cables presented a risk of suicide so
obvious that it must have been known to Sheriff Mazzola.
No doubt, there was substantial room for improvement in
the inmate monitoring equipment present in the jail. The
armored telephone cable presents a means for suicide – as

40a
Appendix B
do other items routinely present in a jail, such as sheets
and clothing. As to these issues, the estate does not
cite evidence to support the contentions that (1) Sheriff
Mazzola was aware that flaws in the inmate monitoring
equipment and the armored telephone cables were
substantially certain to result in a constitutional violation,
in the form of a preventable suicide; and (2) he consciously
and deliberately chose to disregard those risks. However,
such evidence is necessary to establish an official capacity
claim against Sheriff Mazzola.
In sum, Sheriff Mazzola is entitled to summary
judgment on the official capacity claim against him for
two reasons. First, the estate has not presented evidence
sufficient to show an underlying constitutional violation.
Second, assuming arguendo that there was an underlying
constitutional violation, the estate has not presented
evidence sufficient to show that (1) Sheriff Mazzola was
aware that the flaws cited by the estate were substantially
certain to result in a constitutional violation, in the
form of a preventable suicide; and (2) he consciously and
deliberately chose to disregard those risks.
V. STATE LAW CLAIMS
For the reasons detailed above, I grant summary
judgment on the two claims under § 1983. Those two claims
are the only claims over which I have original jurisdiction.
When a federal court has original jurisdiction over claims
under federal law, the court may exercise supplemental
jurisdiction over a state law claim which “forms part of the
same case or controversy . . . .” 28 U.S.C. § 1367(a). When

41a
Appendix B
a federal district court “has dismissed all claims over
which it has original jurisdiction,” the court may decline
to exercise supplemental jurisdiction over the remaining
state law claims. § 1367(c)(3).
When § 1367(c)(3) is implicated, courts are advised
to dismiss pendent state law claims “‘absent compelling
reasons to the contrary.’” Brooks v. Gaenzle, 614 F.3d 1213,
1230 (10th Cir. 2010) (quoting Ball v. Renner, 54 F.3d 664,
669 (10th Cir.1995) (reversing the district court’s grant
of summary judgment on state law claims); Endris v.
Sheridan Cnty. Police Dep’t, 415 Fed.Appx. 34, 36 (10th
Cir.2011) (“any state-law claims for assault and battery or
mental and emotional injury were inappropriate subjects
for the exercise of pendent jurisdiction where all federal
claims had been dismissed”). But see Henderson v. Nat’l
R.R. Passenger Corp., 412 Fed.Appx. 74, 79 (10th Cir.2011)
(finding no abuse of discretion in trial court’s decision to
retain jurisdiction over state law claims after plaintiff
voluntarily dismissed claims arising under federal law).
Finding no compelling reason to retain supplemental
jurisdiction in this case, I exercise my discretion and
decline to exercise supplemental jurisdiction over
the remaining state law claims. Thus, I will dismiss
those claims, but without prejudice. Under § 1367(d),
“(t)he period of limitations for any claim asserted under
subsection (a) [state law claims] . . . shall be tolled while
the claim is pending and for a period of 30 days after it is
dismissed unless State law provides for a longer tolling
period.” This provides the plaintiffs a brief window of time
in which they can re-file their claims in state court. In

42a
Appendix B
addition, §13-80-111, C.R.S., appears to provide a window
of time in which the plaintiffs can re-file their claims in
state court.
VI. CONCLUSION & ORDERS
Sgt. Muxlow is entitled to the protection of qualified
immunity concerning the claim under § 1983 asserted
against him in his individual capacity. Thus, the motion
for summary judgment [#91] is granted as to this claim.
Viewing the undisputed facts in the record in the light
most favorable to the estate of Ms. Rowell, no reasonable
fact finder could find in favor of the estate on the claim
under § 1983 asserted against Sheriff Mazzola in his
official capacity. The motion for summary judgment [#91]
is granted as to this claim.
Under 28 U.S.C. § 1367(c)(3), I decline to exercise
supplemental jurisdiction over the remaining state law
claims. As to those claims, the motion for summary
judgment [#91] is denied as moot.
THEREFORE IT IS ORDERED as follows:
1. That the Defendants’ Motion for Summary
Judgment [#91] is granted as to the claim under 42 U.S.C.
§ 1983 asserted against defendant, Sergeant Jeremy
Muxlow, in his individual capacity;
2. That the Defendants’ Motion for Summary
Judgment [#91] is granted as to the claim under 42

43a
Appendix B
U.S.C. § 1983 asserted against defendant, Sheriff Anthony
Mazzola, in his official capacity;
3. That the claims brought under 42 U.S.C. § 1983 are
dismissed with prejudice;
4. That the claims asserted by the plaintiffs under
Colorado state law are dismissed without prejudice;
5. That the Defendants’ Motion for Summary
Judgment [#91] is denied as moot as to the claims asserted
by the plaintiffs under Colorado state law;
6. That judgment shall enter in favor of the defendants
and against the plaintiffs on the claims under 42 U.S.C.
§ 1983 asserted against the defendant, Sergeant
Jeremy Muxlow, in his individual capacity and against
the defendant, Sheriff Anthony Mazzola, in his official
capacity;
7. That judgment shall enter dismissing the claims of
the plaintiffs under Colorado state law without prejudice;
8. That the Plaintiffs’ Motion to Strike an Exhibit
[Doc. 115-3] to the Summary Judgment Reply [Doc 115]
or for a Summary Judgment Surreply [#118] is denied
without prejudice;
9. That the combined Final Pretrial Conference and
Trial Preparation Conference, set for January 29, 2020,
and the trial, set to begin February 18, 2020, are vacated;

44a
Appendix B
10. That on all claims dismissed with prejudice, the
defendants are awarded their costs, to be taxed by the
clerk in the time and manner prescribed by Fed. R. Civ.
P. 54(d)(1) and D.C.COLO.LCivR 54.1; and
11. That this case is closed.
Dated January 27, 2020, at Denver, Colorado.
BY THE COURT:
/s/				
Robert E. Blackburn
United States District Judge

